Semiannual Report to the Congress
     April 1, 2000 through September 30, 2000




Treasury Inspector General for Tax Administration
      TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                      VISION STATEMENT

We are a respected member of the government community:
   • Independent, objective and professional in the conduct of our
     mission.
   • Dedicated and innovative professionals who take pride in
     promoting fair tax administration and good government.
   • Proud of our past and focused on our future.
                                    DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
       for TAX
   ADMINISTRATION


                                              October 30, 2000



       The Honorable Lawrence H. Summers
       Secretary of the Treasury
       Washington, D.C. 20220

       Dear Mr. Secretary:

       I am forwarding to you the Treasury Inspector General for Tax Administration's (TIGTA)
       Semiannual Report to the Congress for the six-month period ending September 30, 2000.
       Fiscal Year (FY) 2000 has been a highly productive year for TIGTA. We issued 162 audit
       reports during FY 2000; more than double the number of reports issued last fiscal year.
       Financial accomplishments resulting from our audit reports totaled $117.1 million, with an
       additional $1.4 billion in increased revenue and protected revenue. Our audit recommendations
       will improve tax administration for almost 11.4 million taxpaying entities.

       TIGTA closed almost 4,200 investigations during FY 2000; a 43 percent increase over last fiscal
       year. Investigative recoveries totaled $12.9 million. During the year, our special agents focused
       on improving the timeliness of criminal and administrative referrals to help ensure the
       adjudication process is fair and the least intrusive.

       The Office of Audit continues to dedicate its resources to supporting the major challenges that
       face the IRS including technology modernization, and providing customer service and ensuring
       tax compliance. In addition, the annual requirements imposed by the IRS Restructuring and
       Reform Act of 1998 (RRA 98), which deal with taxpayer rights and information systems security,
       have been completed and are included in this report.

       During this reporting period, TIGTA special agents conducted integrity awareness presentations
       for over 30,100 individuals. IRS employees comprised 87 percent of these individuals. We
       believe these presentations heighten integrity awareness and have a potential deterrent effect
       on fraud and misconduct. In addition, TIGTA continues to operate a responsive complaints
       processing center. We received almost 4,800 complaints of alleged criminal wrongdoing or
       administrative misconduct, of which 2,053 warranted further investigation.

       I look forward to helping the IRS address the challenges it faces in FY 2001.

                                                   Sincerely,



                                                   David C. Williams
                                                   Inspector General

       Enclosure
                                            Semiannual Report to the Congress



                                                        Table of Contents
Office of the Inspector General for Tax Administration............................................................ 1

Authorities ....................................................................................................................................... 1

Major Issues Facing the IRS........................................................................................................... 1

Office of Audit................................................................................................................................ 9

Office of Investigations............................................................................................................... 25

Appendix I
  Statistical Reports for the Office of Audit.................................................................................. 39
        Questioned Costs, Funds Put to Better Use, Additional Quantifiable Impact on Tax
        Administration

Appendix II
  Statistical Reports for the Office of Investigations.................................................................... 43
        Investigative Results, Complaints/Allegations Received by TIGTA, Status of
        Complaints/Allegations Received by TIGTA, Complaints/Allegations Received by the IRS

Appendix III
  Statistical Reports—Other........................................................................................................ 49
        Audit Reports With Unimplemented Corrective Actions, Access to Information,
        Audit Reports Issued in Prior Reporting Period With No Management Response,
        Revised Management Decisions, Disputed Audit Recommendations,
        Review of Legislation and Regulations

Appendix IV
  TIGTA Audit Report Listing ........................................................................................................ 63

Appendix V
  Section 1203 Standards............................................................................................................. 71

Appendix VI
  Statutory TIGTA Reporting Requirements ................................................................................ 73

Appendix VII
  Government Performance and Results Act Audits ................................................................. 79

Appendix VIII
  Acronyms.................................................................................................................................. 83

Appendix IX
  Organization Chart ................................................................................................................... 85


                               Treasury Inspector General for Tax Administration
                                             September 30, 2000
                              Semiannual Report to the Congress




                    Office of the Treasury Inspector General
                              for Tax Administration

INFORMATION ABOUT THE                             The functions that carry out these duties are
TREASURY INSPECTOR GENERAL                        the Offices of Audit, Investigations, Chief
FOR TAX ADMINISTRATION                            Counsel, Information Technology and
                                                  Management Services.
The Office of the Treasury Inspector General
for Tax Administration (TIGTA) provides           AUTHORITIES
independent oversight of Internal Revenue
Service (IRS) activities, the IRS Oversight       TIGTA has all the authorities granted under
Board and the IRS Office of Chief Counsel.        the Inspector General Act of 19781. TIGTA
TIGTA is organizationally placed within the       also has access to tax information in the
Department of the Treasury, but is                performance of its responsibilities and the
independent of the Department and all other       authority to report criminal violations directly
Treasury offices. TIGTA’s focus is devoted        to the Department of Justice. The Inspector
to all aspects of work performed in               General (IG) and the Commissioner of
connection with tax administration.               Internal Revenue have established policies
TIGTA’s audit and investigative activities are    and procedures delineating responsibilities to
designed to:                                      investigate offenses under the internal
                                                  revenue laws.
•   Promote economy, efficiency, and
    effectiveness in the administration of the    In addition, the IRS Restructuring and Reform
    nation’s tax system.                          Act of 19982 (RRA 98) amended the Inspector
                                                  General Act of 1978, to give TIGTA statutory
•   Detect and deter fraud and abuse in IRS       authority to carry firearms and execute the
    programs and operations.                      provisions of the Internal Revenue Code
•   Protect the IRS against external attempts     (I.R.C.) Section 7608(b)(2). These provisions
    to corrupt or threaten its employees.         include the law enforcement authority to
Other responsibilities include:                   execute and serve search warrants, serve
                                                  subpoenas and make arrests.
•   Investigating allegations of misconduct
    by IRS employees.
                                                  MAJOR ISSUES FACING THE IRS
•   Reviewing and making recommendations
    regarding existing and proposed               As the nation’s tax administrator, the IRS
    legislation and regulations relating to the   collects 95 percent of federal tax revenues.
    programs and operations of the IRS and        For Fiscal Year (FY) 2000, the IRS was
    TIGTA.                                        projected to collect $1.8 trillion. The IRS
•   Recommending actions to resolve fraud,        processes approximately 230 million tax
    abuses and deficiencies in the programs       returns and provides assistance to more than
    and operations of the IRS.                    125 million taxpayers annually. The IRS also
•   Informing the Secretary of the Treasury       1
                                                    Pub. L. No. 95-452, 92 Stat. 1101, as amended,
    and the Congress of problems and the          at 5 U.S.C. app. 3 (1994 & Supp. II 1996)
    progress made in resolving them.              2
                                                    Pub. L. No. 105-206, 112 Stat. 685

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000
                                  Semiannual Report to the Congress



implements tax law changes and manages                9 through 24, 25 through 37, and in
over 700 office locations. This formidable            Appendix VI, respectively.
task is carried out in an environment where
providing customer service and fairly                 MODERNIZING THE IRS
enforcing tax laws must go hand in hand.
                                                      Creating a modernized IRS is a top priority of
In December 1999, TIGTA advised Congress              the Commissioner, as well as a principal goal
of the following major challenges facing the          of congressional oversight. The ability to
IRS in FY 2000:                                       achieve the IRS’ modernization concept is
•     Modernizing the IRS:                            largely dependent on restructuring the
                                                      organization to better meet taxpayer needs
      " Technology modernization.                     and developing new technology to correct
      " Organization restructuring.                   deficient and obsolete systems.
      " Year 2000 (Y2K) compliance.
                                                      The General Accounting Office (GAO) has
•     Providing security over information             stated that three critically important
      systems.                                        challenges lie ahead for the IRS: revamping
•     Processing returns and implementing tax         business practices, effectively modernizing
      law changes during the tax filing season.       systems, and completing a performance
•     Providing customer service and ensuring         management system.
      tax compliance.                                 Further, the Congress has ordered the IRS to
•     Protecting taxpayer rights.                     achieve 80 percent electronic tax return filing
•     Protecting revenue and minimizing tax           by the year 2007. For the 2000 filing season,
      filing fraud.                                   30 percent of tax returns were filed
                                                      electronically, so significant challenges lie
•     Providing quality customer service              ahead for the IRS to meet the Congressional
      operations.                                     mandate. TIGTA’s Office of Audit reported
•     Managing finances.                              that the IRS must first establish a performance
•     Implementing the Government                     and management plan to determine whether
      Performance and Results Act of 19933            its telecommunications systems can handle
      (GPRA).                                         80 percent of its transactions electronically.
•     Addressing the impact of the global
                                                      Technology Modernization
      economy on tax administration.
                                                      The IRS is making progress toward
These major challenges have been the focus
                                                      implementing an effective systems
of TIGTA’s audit and investigative activities
                                                      modernization management approach. The
during this six-month reporting period. The
                                                      IRS has established an organization and
following sections provide a summary of the
                                                      governance process to manage and oversee its
issues and TIGTA’s activities to help IRS
                                                      systems modernization efforts. In addition,
address these issues. Details of some of the
                                                      the IRS is working closely with its primary
more significant audit and investigative
                                                      contractor to develop the Enterprise
activities, as well as information on statutory
                                                      Architecture and Enterprise Life Cycle (ELC)
requirements, can be found on pages
                                                      processes that are needed to modernize its
                                                      computer systems successfully.

3
    Pub. L. No. 103-62, 107 Stat. 285

                        Treasury Inspector General for Tax Administration
                                      September 30, 2000

                                                  2
                             Semiannual Report to the Congress



However, various management and technical             PROVIDING SECURITY OVER
weaknesses that plagued prior systems                 INFORMATION SYSTEMS
modernization efforts still need to be
addressed. For example, the IRS has not yet           The IRS can be a major political and
fully developed and implemented the                   economic target for terrorists, computer
architecture and ELC, which has caused                hackers, and unscrupulous employees. The
difficulties in managing individual projects.         IRS has conducted comprehensive security
As a result, the IRS has had to delay or scale        reviews of its major facilities and has
back planned projects, including customer             significantly reduced previously identified
service enhancements.                                 security weaknesses. While the IRS has made
                                                      significant progress in bolstering computer
Efforts are underway to improve the                   security, further improvements are needed.
management and oversight of ongoing and
planned modernization projects so that the            During FY 2000, TIGTA’s Office of Audit
improvements in customer service promised             identified weaknesses in key programs, such
to the Congress and taxpayers can be realized.        as security certification and accreditation of
                                                      sensitive systems, virus protection, and
Organization Restructuring                            mainframe operating system controls.
                                                      Striking an appropriate balance between
The IRS is at the end of the “stand up” phase         systems security and maintaining day-to-day
of its organizational restructuring. The              operations is not simple. In some instances,
remaining divisions became operational in             adding security controls may slow systems
October 2000. However, significant work               down and result in less timely service to
must be accomplished before all the divisions         taxpayers. However, until these weaknesses
are fully staffed, functional, and operating          are resolved, IRS systems and taxpayer data
productively. To transition to the new IRS            remain vulnerable to tampering, loss, or
successfully, significant changes in every area       unauthorized disclosure.
of the IRS must occur, i.e., its organizational
structure, information systems, business              TIGTA’s Office of Investigations continues to
practices, and performance management                 address security issues relating to IRS
system. This transition occurs amidst the             computer systems through the Unauthorized
increasing fervor of IRS’ stakeholders to             Access to Taxpayer Accounts (UNAX)
maintain critical enforcement and customer            Detection Project. This Project detects
service programs.                                     potential unauthorized accesses to electronic
                                                      taxpayer records in IRS systems. During this
During this reporting period, TIGTA’s Office          reporting period, TIGTA identified 296
of Audit evaluated the effectiveness of the           potential leads of which 123 were referred to
“stand up” process for both the Large and             field offices for investigation. These alleged
Mid-Size Business and the Small                       abuses continue to comprise the largest
Business/Self-Employed Divisions. Both                segment of investigations of IRS employees.
functions accomplished their objectives;
however, the Office of Audit noted that               The Office of Investigations also assists the
internal and external communications will             IRS in taking a proactive approach to protect
require attention.                                    tax data by: conducting periodic, random
                                                      monitoring of IRS’ internal and external
                                                      connections to ensure the effectiveness of
                                                      controls; identifying threats against the IRS
                                                      through monitoring and intelligence gathering

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                  3
                             Semiannual Report to the Congress



activities and dissemination of that                 result of compliance activity decreased by
information; recommending preventive,                $5 billion and gross accounts receivable
recovery, or mitigation strategies against           increased by $41 billion during this same
internal or external vulnerabilities or actual       period. IRS management and many
attacks; and, providing advice for computer          stakeholders, including some members of
and network security issues and for proposed         Congress, are concerned about the reduction
computer security procurements.                      in resources allocated to compliance activities
                                                     and the related decrease in business results.
PROCESSING RETURNS AND                               To help address this issue, Treasury’s
IMPLEMENTING TAX LAW                                 FY 2001 budget submission includes a
CHANGES DURING THE TAX                               request for 2,800 new positions over the next
FILING SEASON                                        two fiscal years. These additional resources
                                                     will be dedicated to enforcing tax laws and
The filing season impacts every American             improving service to taxpayers.
taxpayer and is, therefore, always a highly
critical program for the IRS. Many programs,         The IRS’ prior Taxpayer Compliance
activities, and resources have to be planned         Measurement Program was considered too
and managed effectively for the filing season        intrusive and was cancelled. Currently, the
to be successful. For example, more than             IRS has no reliable method to measure
250 computer programming changes were                voluntary compliance or the impact that
required for the 2000 filing season. This is         increased customer service and decreased
further complicated by the IRS’                      enforcement are having on voluntary
modernization efforts to update and replace          compliance. The IRS needs to strengthen its
the core tax processing systems.                     enforcement capacity before voluntary
                                                     compliance is severely eroded.
The IRS experienced no significant
processing problems from either tax law              Decreased enforcement also has been
changes or the Y2K conversion during the             attributed to IRS employees’ concerns over
2000 filing season. TIGTA’s Office of Audit,         the mandatory termination provision in
however, reported that the IRS needs to              Section 1203 of RRA 984. To help address
ensure critical programming changes for the          these concerns, the IG has continued to brief
filing season receive priority over other            IRS staff on investigations related to
programming requests.                                Section 1203 violations. During this
                                                     reporting period, the IG briefed over
Additionally, the Office of Audit reported the       2,200 employees of the Tax Exempt and
IRS processing procedures were not designed          Government Entities, and Small
to identify and correct a credit when outdated       Business/Self-Employed Divisions.
estate tax returns were used by taxpayers. As
a result, an estimated 1,250 estates of              PROTECTING TAXPAYER RIGHTS
decedents may have overpaid $11.6 million.
                                                     The legislative changes required by RRA 98
PROVIDING CUSTOMER SERVICE                           continue to have a profound impact on the
                                                     IRS. Most of the RRA 98 provisions,
AND ENSURING TAX COMPLIANCE
                                                     including massive training programs for its
Revenue received by the IRS increased from
$1.5 trillion in FY 1996 to $1.9 trillion in         4
                                                      Provisions in Section 1203 of RRA 98 provide
FY 1999. However, revenue collected as a             for the mandatory termination of IRS employees
                                                     for specific categories of employee misconduct.

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                 4
                               Semiannual Report to the Congress



thousands of employees, have been modified           earlier, Section 1203 of RRA 98 provides for
or implemented. The IRS plans to test these          the mandatory termination of IRS employees
reforms over the next two years. During this         for specific categories of employee
time, significant management attention will be       misconduct. Some of the misconduct
required to evaluate the effectiveness of the        includes: violation of Constitutional or civil
reforms.                                             rights of taxpayers or IRS employees;
                                                     intentional misconduct involving a taxpayer
TIGTA is required to review the IRS’
                                                     matter; threatening taxpayers with an audit for
compliance with some of the RRA 98
                                                     personal gain; or, willful understatement by
provisions annually. During this reporting
                                                     an employee of his or her own federal tax
period, the Office of Audit completed its
                                                     liability. During this reporting period,
second series of statutory reviews.
                                                     TIGTA’s Office of Investigations initiated
Overall, the Office of Audit reported some           164 investigations involving alleged Section
improvement in the IRS’ compliance with              1203 violations, of which 32 were closed.
many of the RRA 98 provisions. However,
the degree of improvement often could not be         PROTECTING REVENUE AND
quantified because strict comparisons between        MINIMIZING TAX FILING FRAUD
the two years could not be drawn. One area
of improved compliance involved seizures.            The IRS must continually seek opportunities
The Office of Audit reported that the IRS            to protect revenue and minimize tax filing
complied with the specific I.R.C. provisions         fraud in its programs and operations. In
and its own guidelines for all seizure cases         October 1999, the GAO reported the Earned
reviewed. In addition, the IRS complied with         Income Credit (EIC) as a high-risk area. The
the RRA 98 provisions for all district office        IRS then reported EIC filing fraud as a
levies issued, and for 99 percent of the             Federal Managers’ Financial Integrity Act of
Customer Service Automated Collection                1982 (FMFIA)7 material weakness. The IRS’
System (ACS) call site levies reviewed.              weaknesses are in three primary areas:
                                                     achieving full participation by eligible
Other RRA 98 provisions need continued               taxpayers; ensuring compliance through
monitoring because the IRS is not yet in full        verification of taxpayers’ eligibility; and,
compliance. These include restricting the use        reducing inherent vulnerabilities (multiple use
of enforcement statistics to evaluate IRS            of dependent Social Security Numbers).
employees, not designating taxpayers as
illegal tax protesters, providing proper and         With respect to revenue protection, TIGTA’s
timely notice that a federal tax lien has been       Office of Audit reported that the IRS should
filed, and not withholding information in            expand early intervention efforts nationwide
response to taxpayers’ written requests for          to further reduce unreported estate executor
information under the Freedom of                     commissions. This action could potentially
Information Act (FOIA) of 19885 or the               result in an additional $2.6 million in taxes
Privacy Act (PA) of 19746.                           and interest over the next five years.

TIGTA also protects taxpayers and their
rights by investigating allegations of
misconduct by IRS employees. As stated

5
    5 U.S.C. § 552 (1996)
6                                                    7
    5 U.S.C. § 552a (1996)                               31 U.S.C. §§ 1105-1106, 1113, and 3512 (1994)

                        Treasury Inspector General for Tax Administration
                                      September 30, 2000

                                                 5
                             Semiannual Report to the Congress



PROVIDING QUALITY CUSTOMER                           MANAGING FINANCES
SERVICE OPERATIONS                                   The Federal Financial Management
Providing top quality service to every               Improvement Act of 1996 (FFMIA)8 requires
taxpayer is integral to the IRS’ modernization       each agency to implement and maintain
plans. There are many ways in which the IRS          financial management systems that comply
provides customer service; the most direct           substantially with federal financial
being, toll-free telephone service, electronic       management systems requirements, applicable
customer service, written communications to          federal accounting standards, and the United
taxpayers, and walk-in service. Each of these        States (U.S.) Government Standard General
services affects a taxpayer’s ability to             Ledger9 at the transaction level.
voluntarily comply with the tax laws.
                                                     The GAO and the Treasury Office of
During this reporting period, TIGTA’s Office         Inspector General have identified numerous
of Audit conducted reviews of the IRS’               internal control weaknesses in the IRS’
toll-free and walk-in assistance programs.           financial operations during their audits of the
Planning for these programs was adequate for         annual financial statements. The GAO
the 2000 filing season; however, resource            reported material weaknesses in the IRS’
limitations prevented full implementation of         reporting of unpaid assessments, refunds,
customer service initiatives. Some                   property and equipment, and accounting for
Spanish-speaking callers will not have the           liabilities and accrued expenses. Based on
option of having their questions answered in         these material weaknesses, the IRS’ financial
Spanish and some callers will not have the           systems did not substantially comply with the
option of speaking to a customer service             FFMIA requirements, and the IRS was
representative. Also, guidelines for                 required to prepare a remediation plan.
measuring the quality and timeliness of
                                                     The Office of Audit’s assessment of IRS’
services provided by the walk-in assistance
                                                     compliance with the FFMIA remediation plan
program could be improved.
                                                     requirements is highlighted on page 22.
Additionally, the Office of Audit concluded
that the IRS, through the Electronic Tax Law         IMPLEMENTING GPRA
Assistance (ETLA) Program, needs to
leverage technology to provide enhanced              The GAO has recognized IRS’ progress in
access to tax information, maximize                  developing a balanced performance measures
efficiency, and improve electronic customer          system. However, GAO still cites completing
service. In addition, TIGTA reported that the        a performance management system as one of
IRS must ensure the Tax Exempt/Government            the three critical challenges the IRS faces.
Entities Division’s centralized customer             Developing a key business results measure for
service site has the latest technology and           voluntary compliance is essential if the IRS is
resources to meet future growth, as well as a
comprehensive business resumption plan.
                                                     8
                                                       Pub. L. No. 104-208, 110 Stat. 3008-314,
                                                      3009-389 (1996)
                                                     9
                                                       The United States Government Standard General
                                                     Ledger provides a uniform Chart of Accounts to
                                                     be used in standardizing federal agency accounting
                                                     that supports the preparation of standard external
                                                     reports.

                    Treasury Inspector General for Tax Administration
                                  September 30, 2000

                                                 6
                              Semiannual Report to the Congress



to understand the problems of non-compliant            TIGTA EMPLOYEES RECOGNIZED
taxpayers and improve its service to them.             AT TREASURY SECRETARY'S
TIGTA’s Office of Audit reported the IRS’              ANNUAL AWARD CEREMONY
GPRA efforts could be improved in the
following areas: designating an executive              In May 2000, TIGTA employees received top
office responsible for coordinating and                honors from Treasury Secretary Lawrence H.
ensuring GPRA requirements are met;                    Summers. The entire staff of the Office of
improving processes for timely and accurately          Investigations’ Strategic Enforcement
gathering and validating performance data;             Division (SED), and the Office of Audit’s
and, properly qualifying customer satisfaction         Director of Management and Policy, were
survey results.                                        recognized for their significant contributions
                                                       to the effective and efficient operation of the
ADDRESSING THE IMPACT OF THE                           Treasury Department.
GLOBAL ECONOMY ON TAX                                  SED is a multidisciplinary team of auditors,
ADMINISTRATION                                         special agents and computer specialists who
                                                       use advanced computer technology and
The IRS has indicated that it has undertaken
                                                       research skills to detect and investigate
several international tax administration and
                                                       misuse of tax information and other crimes
compliance programs to address the Office of
                                                       involving IRS computer systems. Since its
Audit’s concerns in the areas of transfer
                                                       inception, SED has made over 600
pricing, tax credits, foreign trust, non-filers,
                                                       investigative referrals resulting in criminal
and foreign-sourced income reporting issues.
                                                       and administrative sanctions. The Division’s
The Office of Audit has two reviews in
                                                       efforts have greatly enhanced the sanctity and
process that evaluate compliance by foreign
                                                       security of federal tax information.
investment partners and taxpayers receiving
foreign-sourced income.
In FY 2001, the Office of Audit will address
discrepancies between foreign controlled
corporations and domestic corporations with
regard to taxes paid on revenue. The Office
of Audit will also conduct a follow-up review
on the use of Form 1042S, Foreign Persons
United States Source Income Subject to
Withholding.

                                                       Strategic Enforcement Division Staff at DAR Constitution Hall
                                                       in Washington, DC, following the awards ceremony.




                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                   7
                              Semiannual Report to the Congress



During the transition from the prior IRS
Inspection Service to TIGTA, Ms. Begg
established and implemented new audit
processes affecting every aspect of the audit
program. Ms. Begg’s efforts have resulted in
higher quality audit reports and other critical
products, such as Congressional testimony,
the Annual Audit Plan, and the Semiannual
Report to the Congress.

                                                      Margaret Begg, Director, Management and Policy, and
                                                      Secretary Summers




                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                  8
                              Semiannual Report to the Congress



            Treasury Inspector General for Tax Administration
                             Office of Audit

INTRODUCTION                                           SIGNIFICANT AUDIT RESULTS

The Office of Audit identifies opportunities to        During this reporting period, the Office of
improve administration of the nation’s tax             Audit issued 101 audit reports which are
laws by conducting comprehensive,                      listed in Appendix IV.
independent performance and financial audits
                                                       The results of the most significant reviews are
of IRS programs and operations to:
                                                       discussed in the following sections.
•   Assess efficiency, economy,
    effectiveness, and program
                                                                 Modernizing the IRS
    accomplishments.
•   Ensure compliance with applicable laws             Significant Risks Need to Be
    and regulations.                                   Addressed to Ensure Adequate
•   Prevent, detect, and deter fraud, waste,           Oversight of the Systems
    and abuse.                                         Modernization Effort
                                                       (Reference No. 2000-20-099)
THE AUDIT PROGRAM                                      For more than a decade, the IRS has been
                                                       attempting to modernize its outdated,
To assist the IRS in meeting the challenges it         paper-intensive tax processing system. After
faced in FY 2000, the Office of Audit                  spending over $3 billion with minimal
developed a comprehensive audit program.               improvement and under intense Congressional
The program helped the IRS assure that tax             scrutiny, the IRS agreed to use a contractor to
administration programs were efficient and             modernize its systems. The IRS is currently
effective, and minimized fraud, waste, and             in the early phases of a new multi-billion
abuse.                                                 dollar, 15-year systems modernization effort.
The audit program is presented in the Annual           The IRS has made progress in correcting
Audit Plan which communicates audit                    organizational weaknesses from past systems
priorities for the current fiscal year. Many of        modernization efforts. Top level IRS
the activities described in the Plan address the       executives are heavily involved in this effort.
fundamental goals related to the IRS’ mission          Also, the IRS now recognizes the need to
to administer its programs effectively and             develop program management capabilities,
efficiently. Major management issues, as well          risk management processes, and quality
as specific areas of concern to the Congress           assurance policies and procedures.
and the IRS Commissioner, are also                     The Office of Audit reported, however, that
addressed. As such, audit work is organized            current oversight of the systems
around the IRS’ core business activities with          modernization effort has been hampered by
emphasis on the statutory coverage imposed             the lack of a stable Program Management
by RRA 98. Audit work also focuses on other            Office (PMO). Program management staffing
statutory authorities and standards involving          needs have not been determined; roles and
computer systems and financial management.             responsibilities inside the IRS and between
                                                       the IRS and the contractor have yet to be

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                   9
                              Semiannual Report to the Congress



clearly defined; and, key processes such as            However, the Office of Audit reported that the
risk management and performance monitoring             IRS’ approach may not include all the
need to be improved. These growing pains               necessary processes, activities, and work
were a primary cause of the IRS’ decision to           products to fully develop the Enterprise
scale back or delay delivery of some                   Architecture; ensure that the blueprint
modernization initiatives.                             architecture meets the IRS’ needs; or, ensure
                                                       that systems modernization projects follow
The Office of Audit recommended that IRS
                                                       architecture guidance.
management stabilize the PMO designed to
oversee the systems modernization effort and           The Office of Audit recommended that the
develop plans to ensure the adequacy of PMO            IRS strengthen its controls and processes to
staffing. Also, the IRS should establish               ensure the architecture products meet the IRS’
offices responsible for developing and                 needs, and systems development projects
enhancing performance monitoring and risk              follow this guidance.
management capabilities. These
                                                       IRS management's response was not received
recommendations should help IRS deliver
                                                       prior to the issuance of the audit report.
systems that result in improved service to
taxpayers through the implementation of
                                                       The Security and Performance of
quality modernization projects.
                                                       Electronic Tax Return Processing
IRS management agreed with the                         Should Be Improved to Meet Future
recommendations and has initiated corrective           Goals (Reference No. 2000-20-095)
action.
                                                       The Electronic Management System (EMS) is
                                                       IRS’ primary system for receiving electronic
Additional Actions Are Needed to
                                                       tax returns from trading partners. Through
Strengthen the Development and
                                                       April 17, 2000, the EMS received
Enforcement of the Enterprise
                                                       approximately 41 million individual federal
Architecture
                                                       and state income tax returns, about 28 percent
(Reference No. 2000-20-158)
                                                       more returns than in the 1999 filing season.
A critical component of the IRS’
                                                       The Office of Audit identified that the EMS
modernization effort is the establishment of
                                                       had sufficient telecommunications and
an Enterprise Architecture that defines
                                                       processing capacity to receive and store
concepts such as the organization’s mission,
                                                       expected tax return volumes during the
vision, and future business objectives. The
                                                       2000 filing season. However, IRS
IRS’ Modernization Blueprint, which is being
                                                       management should implement performance
used to guide and control the modernization
                                                       and capacity management planning and
efforts, contains the IRS’ initial steps toward
                                                       evaluate processing efficiency to determine if
defining the architecture.
                                                       the EMS can handle the significant increases
The IRS is currently developing architecture           in electronic filing anticipated in the future.
work products that will become part of the             Also, IRS management should improve EMS
planned September 2000 update of the                   security and project management controls,
Modernization Blueprint. These documents               and complete and test the disaster recovery
will explain the IRS’ architecture standards,          plan.
business requirements, and strategy for when
                                                       IRS management agreed with the
and how the new computer systems will be
                                                       recommendations and has initiated corrective
implemented.
                                                       action.

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                  10
                             Semiannual Report to the Congress



Actions to Correct Service Center                             Providing Security Over
Mainframe Consolidation Contract                               Information Systems
Administration Issues Have Not Been
Completed, But Progress Is Being                      Certifying the Security of Internal
Made (Reference No. 2000-20-140)                      Revenue Service Computer Systems Is
The IRS is in the process of consolidating the        Still a Material Weakness
mainframe computer operations used to                 (Reference No. 2000-20-092)
process tax data. The consolidation involves          The Office of Management and Budget and
moving mainframe processing from the IRS’             the Department of Treasury directives require
ten service centers to new mainframe                  all information systems that process sensitive
computers located in two computing centers.           but unclassified information, such as taxpayer
As of March 2000, the five-year cost estimate         data, be certified and accredited prior to being
for the consolidation project is nearly               placed into operation. In 1995, the IRS began
$480 million, which includes extensive                monitoring its sensitive systems certification
contractor support.                                   process as a potential management control
The Office of Audit initiated this follow-up          weakness, and in 1997, the IRS officially
review of contract administration issues              reported the process as a material weakness.
previously reported (Reference No.                    This issue continues to be an open item on the
199920068, dated September 1999), to                  IRS’ FY 1999 assessment of management
determine whether IRS management                      controls.
effectively addressed those issues.                   The Office of Audit reported that of the
IRS management has begun work to address              258 sensitive systems listed on the
the contract administration issues. Although          January 2000 inventory, 232 (90 percent)
corrective actions have not been completed as         systems were still not certified. In addition,
planned, the IRS has already realized                 the Certification Program Office does not
measurable outcomes. The prior audit report           have sufficient information to monitor
claimed $19 million in cost savings. This             whether accreditations are granted and/or
current report is claiming an additional              granted timely for certified systems. The IRS
$28.8 million in cost savings.                        is taking steps through contractor support to
                                                      improve the certification process and alleviate
The Office of Audit reported that delivery            the backlog of non-certified systems.
order definitization has not been completed           However, more emphasis is needed to resolve
and invoices for services are not adequately          this material control weakness in a timely
verified. IRS management is continuing its            manner.
work to complete the corrective actions;
however, further delays increase the risks of         The Office of Audit recommended that the
incurring additional or inappropriate costs.          IRS place more emphasis on building security
                                                      controls into new information systems. To
The Office of Audit recommended that IRS              ensure this happens, IRS management should
management ensure that the definitization of          not authorize the implementation of any new
all delivery orders is completed for the              system until controls are sufficient and the
Service Center Mainframe Consolidation                system has the required security certification
Contract, and provide the resources needed to         and accreditation. The Office of Audit
verify the invoices adequately.                       estimated that the IRS will pay contractors
IRS management agreed and will continue its           $26 million to develop security
efforts to complete the corrective actions.           documentation for systems that were rolled

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                 11
                             Semiannual Report to the Congress



out without the necessary security controls.          to spread. Anti-virus software was either not
Most of this cost could have been avoided if          operating properly or did not have recent
security controls had been built in and               updates for 56 percent of the servers and
certification and accreditation had been              workstations tested. In addition, the IRS did
accomplished during systems development.              not have a formal response capability for
                                                      resolving major viral outbreaks. Advance
IRS management generally agreed with the
                                                      preparations outlining the procedures and
findings and recommendations. Management
                                                      mechanisms to be put in place when major
is developing a new process for certifying
                                                      outbreaks occur did not exist, and a team to
new systems within the systems development
                                                      manage and resolve outbreaks had not been
life cycle. Also, management anticipates that
                                                      formed.
systems will be implemented without full
certification only in special circumstances.          The Office of Audit recommended that IRS
Contractor support will continue to be used to        management designate a senior official to be
reduce the backlog of uncertified systems.            responsible for managing IRS’ virus
                                                      prevention program and overseeing its
The Office of Audit agrees with
                                                      effective implementation.
management’s response, with one exception.
Considering the sensitivity of the data               IRS management agreed with the
processed by the IRS and the risks inherent in        recommendation and plans to implement
today’s interconnected computer systems, the          corrective actions. After the Office of Audit’s
Office of Audit does not believe that any new         report was issued, the IRS was infected by the
system should be implemented without                  “I Love You” virus and responded effectively
appropriate security controls.                        and efficiently by communicating with
                                                      employees, eliminating the virus, and keeping
A Comprehensive Program for                           disruptions to a minimum.
Preventing and Detecting Computer
Viruses Is Needed                                     The Internal Revenue Service Should
(Reference No. 2000-20-094)                           Improve Actions to Protect Its Critical
                                                      Infrastructure
Computer viruses pose a serious and rapidly
                                                      (Reference No. 2000-20-097)
increasing threat to computer systems. The
cost of cleaning up viruses and the negative          The Clinton Administration’s Policy on
impact on productivity caused by computer             Critical Infrastructure Protection:
down time is significant. Although the IRS            Presidential Decision Directive (PDD) 63,
did not have data on the extent and cost of           dated May 1998, calls for a national effort to
viruses on its systems, industry data suggests        assure the security of the nation’s critical
that the cost to a business could be between          infrastructure. The critical infrastructure
$500,000 and $11.5 million annually.                  consists of physical and computer-based
                                                      systems essential to the minimum operations
The Office of Audit reported that the IRS did
                                                      of the economy and government. This
not have a comprehensive program for
                                                      includes, but is not limited to,
directing and overseeing the effectiveness of
                                                      telecommunications, banking and finance,
its computer virus prevention and detection
                                                      energy, transportation, and essential
activities. Accountability for a successful
                                                      government services.
program had not been assigned to a senior
manager or executive. As a result, viruses            The Office of Audit reported that, during the
were not effectively eliminated and continued         last three years, the IRS has taken significant


                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                 12
                               Semiannual Report to the Congress



actions to identify and correct security                      Processing Returns and
weaknesses. However, due to other priorities,              Implementing Tax Law Changes
the IRS has not met PDD 63 documentation                    During the Tax Filing Season
requirements. As a result, the IRS is in
jeopardy of missing the first milestones                 The Internal Revenue Service’s
required by the directive. The                           Process for Controlling Filing Season
December 2000 milestones are critical for the            Computer Programming Changes
IRS to ensure that the vulnerabilities of its            Does Not Ensure Critical Changes Are
critical infrastructure are known and that               Effectively Implemented
remedial plans can be developed. As a result,            (Reference No. 2000-40-069)
until mission essential assets are defined and
adequately evaluated, IRS management will                IRS’ Submission Processing functions need
not have a complete accounting of its critical           an effective process to control computer
infrastructure vulnerabilities or a clear picture        programming changes. This process is
of the actions necessary to comply with                  critical since the IRS has determined that over
PDD 63. The IRS, as well as other agencies               250 computer programming changes were
and states that use IRS data, could be at undue          needed for the 2000 filing season.
risk of disrupted operations and processing              The Office of Audit reported that the IRS
delays.                                                  does not have a comprehensive process for
To expedite efforts, the Office of Audit                 controlling computer programming changes.
recommended that the IRS use the results of              IRS’ current process does not document all
its ongoing security evaluation efforts, which           critical activities from the point the IRS
are identifying and correcting security                  identifies the need for a computer
weaknesses, to comply with PDD 63.                       programming change until the program is
Additionally, IRS’ Chief Infrastructure                  implemented. In addition, the IRS needs to
Assurance Officer should coordinate with                 ensure critical programming changes receive
senior Department of the Treasury and IRS                priority and that all IRS offices use the same
officials to expedite the definition and                 process to control requests for programming
identification of mission essential assets for           changes.
critical infrastructure protection.                      To ensure that all requests for computer
IRS management agreed with the                           programming changes are effectively
recommendations and plans to implement                   controlled, the Office of Audit recommended
corrective actions prior to the end of                   that the IRS improve its process for managing
December 2000.                                           computer programming changes and
                                                         providing accurate management information.
                                                         This process should include documenting all
                                                         critical activities within the Request for
                                                         Information Services (RIS) process, as well as
                                                         validating information in the existing RIS
                                                         databases before it is combined into a
                                                         centralized database. Also, the IRS should
                                                         develop written criteria for prioritizing RIS’
                                                         and publish standardized procedures to assure
                                                         that computer programming changes are
                                                         effectively controlled for all offices.


                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                    13
                                  Semiannual Report to the Congress



The IRS agreed with the recommendations                 Providing Customer Service and
and is initiating corrective action.                       Ensuring Tax Compliance
The Internal Revenue Service                          Improvements Are Needed in
Processed Most Estate and Gift Tax                    Resolving In-Business Trust Fund
Returns Accurately, but Some Estates                  Delinquencies to Prevent Tax
Did Not Receive the Maximum Tax                       Liabilities From Pyramiding
Credit (Reference No. 2000-30-115)                    (Reference No. 2000-30-111)
The IRS processed most Tax Year (TY) 1999             The In-Business Trust Fund Taxpayer
estate and gift tax returns in accordance with        Program is among the highest FY 2000
the provisions of the Taxpayer Relief Act of          priorities for cases in a revenue officer’s
199710. However, approximately one percent            inventory in IRS’ Collection Field Function
(197) of the 18,184 estate tax returns                (CFf). The CFf is responsible for collecting
processed by the IRS from November 1999               delinquent accounts. Timely and effective
through March 2000 were filed on outdated             collection is necessary because these
forms that showed a lower allowable unified           taxpayers (employers) are still in business and
credit. IRS processing procedures were not            can continue to pyramid liabilities every three
designed to identify and correct the                  months. Approximately 39 percent of the
understated credit and the resulting                  delinquent taxpayers reviewed had at least
$1.8 million in miscalculated estate tax. IRS         five delinquent accounts in the CFf inventory,
management took corrective actions based on           demonstrating how quickly these liabilities
the audit results provided to them during the         can pyramid.
course of this review. The Office of Audit
estimated that one percent of approximately           The Office of Audit reviewed 116 delinquent
125,000 TY 1999 estate tax return filers may          in-business trust fund taxpayer cases where
have overpaid $11.6 million in tax.                   liabilities had pyramided. Although revenue
                                                      officers collected $4.9 million while working
The Office of Audit recommended that IRS              these cases, a greater amount in additional tax
management revise the processing                      liabilities ($5 million) accrued while the cases
instructions to correct the credit amount when        were open in the CFf.
an outdated estate tax return form is filed.
                                                      Revenue officers were effectively using
IRS management agreed with the                        certain collection tools, such as conducting
recommendation and has initiated corrective           timely and thorough initial contacts,
action.                                               informing taxpayers of their rights, giving
                                                      clear instructions to taxpayers, setting
                                                      deadlines, and informing taxpayers of the
                                                      potential consequences of not paying.
                                                      However, in many instances, actions on cases
                                                      were not taken timely or additional tools
                                                      could have been used more effectively to
                                                      potentially prevent taxpayers from
                                                      pyramiding liabilities; i.e., timely assignment
                                                      of cases, taking additional enforcement
                                                      actions, and monitoring of the Federal Tax
                                                      Deposit (FTD) payments.
10
     Pub. L. No. 105-34, 111 Stat. 788

                        Treasury Inspector General for Tax Administration
                                      September 30, 2000

                                                 14
                                          Semiannual Report to the Congress



The Office of Audit recommended that IRS                              The Office of Audit’s evaluation showed that
management adopt quicker time frames for                              during the past four years, Collection and
assigning cases, re-emphasize the use of all                          Examination compliance efforts and results,
available enforcement tools, identify a better                        in most areas, have decreased. Direct time
way to monitor FTD payments, ensure                                   spent by revenue officers collecting unpaid
taxpayers stay current with their payments,                           taxes and pursuing unfiled returns fell by
and gather trending information on taxpayers                          30 percent from FY 1996 to FY 1999. Direct
who do not comply.                                                    time spent examining returns fell by
                                                                      28 percent during this time.
IRS management generally agreed with the
recommendations and has initiated corrective                                    Direct Examination and Collection Staff Years
action as warranted.
                                                                                            Collection                 Examination
                                                                       12,000
Management Advisory Report:
Evaluation of Reduction in the Internal                                10,000             9,204             8,928
                                                                                                                            7,746
Revenue Service’s Compliance                                            8,000
                                                                                  6,682
                                                                                                    6,317
                                                                                                                                            6,629
                                                                                                                    5,683
Activities (Reference No. 2000-30-075)                                  6,000                                                       4,695
                                                                        4,000
Over the past several years, the number of
                                                                        2,000
IRS employees has steadily decreased due to
                                                                            0
budget limitations. Correspondingly, the                                              FY 96              FY 97          FY 98           FY 99
number of employees examining tax returns
                                                                      Source: Collection Reports 5000-23 and Examination
and collecting taxes also decreased. IRS                              Tables 37
management, members of the Congress, and
others are concerned about this resource                              The reduction in hours available for return
reduction and the related decrease in business                        examination was caused by several factors,
results.                                                              including: a decrease in staffing levels;
                                                                      diversion of resources to customer service
Revenue received by the IRS increased from                            activity; employee training; and, an increase
$1.5 trillion in FY 1996, to $1.9 trillion in                         in time to resolve cases due to ever-changing
FY 1999. However, revenue collected as a                              and increasing complexities of tax laws.
result of compliance activity decreased
13 percent ($5 billion) from FY 1996 to                               At this time, the IRS does not have a reliable
FY 1999, while gross accounts receivable                              method to measure voluntary compliance or
increased 19 percent ($41 billion).                                   to determine the impact that increased
                                                                      customer service has on voluntary
         Change in Enforcement Revenue and                            compliance. Consequently, it is difficult to
               Accounts Receivable                                    assess the benefits of using compliance
         Enforcement Revenue       Gross Accounts Receivable
                                                          130%
                                                                      resources for customer service, compared to
                                                  119% 120%           the decrease in compliance results.
                                   114%
              109%                                        110%        This audit report was advisory in nature and
100%
                                                          100%        was issued to aid IRS management in making
                  98%
                                   93%                    90%         decisions regarding the allocation of resources
                                                    87%
                                                         80%          and the development of new management
 FY 96             FY 97           FY 98             FY 99
                                                                      information systems. This report did not
Source: Enforcement Revenue Information System                        include specific recommendations and no
and Chief Financial Officer Financial Report
                                                                      response was required.


                               Treasury Inspector General for Tax Administration
                                             September 30, 2000

                                                                 15
                              Semiannual Report to the Congress



Millions of Dollars in Internal Revenue                 The Internal Revenue Service Needs to
Service Excess Collections Accounts                     Improve Control of Its Compliance
Could Be Credited to Taxpayers                          Research Program
(Reference No. 2000-30-088)                             (Reference No. 2000-40-068)11
As of March 1999, an estimated one million              As the IRS migrates to four operating
taxpayers had payments totaling $2.3 billion            divisions12, its traditional approach to tax
in Excess Collections Accounts. When a                  administration is changing to incorporate the
payment cannot be associated with a                     needs of a diverse taxpayer population. With
taxpayer’s account or a tax return is not filed,        this new approach, it is important for the IRS
the IRS will, after meeting processing                  to effectively develop and use compliance
requirements, transfer the payment to its               research data to guide its programs.
Excess Collections Accounts. These accounts
                                                        The Office of Audit reported that the IRS
include unidentified remittances (where the
                                                        does not have effective controls over its
identities of taxpayers are unknown),
                                                        research activities and cannot quantify its
miscellaneous fees, and voluntary
                                                        value to tax administration. Although the IRS
contributions.
                                                        recently implemented new procedures to
The Office of Audit reported that taxpayers             better manage its compliance research
do not always receive credit for certain tax            program, it cannot accurately measure the
payments due to computing system                        cost-effectiveness or the impact of the
limitations and processing procedures, as well          information provided to its functional
as the statutory provisions of the tax law.             programs.
To protect taxpayer rights and reduce the risk          The Office of Audit recommended the IRS
of inappropriate collection actions being               develop a process to identify and measure
taken, the Office of Audit recommended that             actual research outcomes and their related
the IRS immediately credit taxpayers’                   costs. Also, to ensure that research activities
accounts, where appropriate. Also, the IRS              provide value to its customers, the IRS should
needs to develop a coordinated,                         report research results to functional customers
cross-functional strategy to minimize                   timely and involve them more in the research
payments being transferred to Excess                    process. The IRS should also maintain
Collections Accounts. This strategy needs to            adequate project documentation to facilitate
include interim and long-term measures that             effective business decisions.
address systems and procedural limitations.
                                                        IRS management agreed with the
Finally, the IRS should use these audit results
                                                        recommendations and has taken steps to
to support pending legislative suggestions by
                                                        improve control over project costs. IRS
the National Taxpayer Advocate’s Office
                                                        management did not agree to document
regarding statutory requirements for refunding
and crediting payments.
                                                        11
IRS management agreed with the                             The Office of Audit also conducted a separate
                                                        review of Compliance Research’s security of
recommendations and has taken steps to
                                                        taxpayer data, Reference No. 2000-20-159.
improve its process for managing Excess                 12
                                                           The IRS is moving from a business structure
Collections Accounts.                                   based on functional processes to four operating
                                                        divisions that will focus on the unique needs of
                                                        particular taxpayer groups. Each operating
                                                        division will be responsible for all processing and
                                                        service provided to a specific group of taxpayers.

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                   16
                               Semiannual Report to the Congress



customer discussions, choosing instead to rely           updating the Integrated Submission and
on current project prospectuses to ensure                Remittance Processing System to permit the
customer involvement.                                    posting of payments and extensions to both
                                                         the individual income and gift tax accounts;
                                                         improve the reviews of lockbox performance;
     Protecting Taxpayer Rights
                                                         and, enhance the lockbox performance
                                                         reports.
Significant Improvements Are Needed
in Processing Gift Tax Payments and                      IRS management generally agreed with the
Associated Extensions to File                            findings and recommendations and has
(Reference No. 2000-30-154)                              initiated corrective action. IRS management
                                                         did not agree with the following
IRS centers and lockbox processing sites
                                                         recommendations: determining whether gift
misapplied most gift tax payments made by
                                                         tax payments and extensions could be
taxpayers who filed for an automatic
                                                         completely processed at lockbox sites;
extension of time to file Form 4868, U.S.
                                                         directing the lockbox coordinators to review
Individual Income Tax Return. These
                                                         correspondence with taxpayers; and,
misapplied payments were incorrectly
                                                         instructing the lockbox depository to review
processed to taxpayers’ individual income tax
                                                         the extension forms during the 2001 filing
accounts, and extensions were usually
                                                         season. Instead, the IRS plans to rely on other
processed to individual income tax accounts
                                                         improvements being made to help resolve
instead of to both individual and gift tax
                                                         some of these issues, and advised that the
accounts.
                                                         lockbox banks have agreed to focus on the
The Office of Audit estimated that                       processing of extension forms during its
$1.4 billion in gift tax payments were                   training for the 2001 filing season.
misapplied during the processing of TY 1996,
1997, and 1998 extensions. Because                       Increased Attention Is Needed to
processing guidelines were either not                    Ensure Timely, Accurate
followed, incomplete, or unclear, the IRS sent           Determinations on Innocent Spouse
taxpayers an estimated $237 million in                   Claims for Relief
erroneous refunds and over 18,300 incorrect              (Reference No. 2000-40-063)
notices. In addition, the IRS charged
                                                         The IRS considered the provisions for
taxpayers an estimated $3.2 million in
                                                         innocent spouse relief to be one of the ten
penalties that they did not owe, and paid an
                                                         most significant areas of RRA 98.
estimated $8.1 million in interest to taxpayers
                                                         Section 3201 of RRA 98 liberalized the
for delayed refunds.
                                                         factors that the IRS considers when evaluating
The Office of Audit recommended that IRS                 requests for relief from income taxes under
management require the review of all balance             the innocent spouse provisions. This
due notices for gift tax returns and instruct tax        liberalization significantly increased the
examiners to review the taxpayers’                       number of claims that the IRS received.
corresponding individual and gift tax                    Between July 22, 1998, and
accounts; revise the IRS center and lockbox              December 31, 1999, the IRS received
guidelines to ensure that processing                     approximately 64,000 innocent spouse claims.
instructions for payments and extensions
                                                         The IRS was not prepared to effectively
involving gift tax returns are complete, clear,
                                                         process the increased volume of innocent
and followed; explore the possibility of
                                                         spouse claims for relief. IRS management

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                    17
                              Semiannual Report to the Congress



was slow to react to predictions of increased          The Internal Revenue Service Needs to
innocent spouse claims and failed to                   Better Address Bankruptcy Automatic
adequately staff the program when the                  Stay Violations
predictions materialized. Instead of setting up        (Reference No. 2000-30-162)
a fundamentally sound program with
                                                       The Bankruptcy Code, 11 United States Code
long-term solutions, IRS management
                                                       (U.S.C.) Section 362, prohibits creditors from
initiated short-term solutions designed to
                                                       taking certain actions against individuals after
reduce the inventory backlog. These steps
                                                       they have filed for bankruptcy, which is
were not successful and cases in open
                                                       known as the “automatic stay.” As long as
inventory reached a program high of 46,000
                                                       the automatic stay is in effect, creditors
by December 31, 1999.
                                                       generally cannot take actions, such as
The IRS has taken several positive actions to          initiating or continuing lawsuits, garnishing
address the problems of implementing the               wages, or even making telephone calls
Innocent Spouse Program. These actions                 demanding payments.
included changing the management structure,
                                                       For FY 1999, IRS data shows nearly half of
appointing a full-time national project
                                                       the individuals and businesses filing
manager with expanded authority, developing
                                                       bankruptcy had outstanding tax liabilities
a job aid for making determinations,
                                                       totaling $3.4 billion.
redesigning the application for relief to help
taxpayers better understand eligibility                The IRS is not always accomplishing its
requirements, and establishing a centralized           objective of identifying violations of the
quality review of innocent spouse case                 bankruptcy automatic stay provisions. The
decisions. However, IRS management needs               Office of Audit reported that in its review of
to take additional actions to implement an             three IRS district offices, approximately
effective program to provide timely, accurate          86,000 bankruptcies were input into the
determinations on innocent spouse claims.              Automated Insolvency System during
                                                       FY 1999. There was some indication that
The Office of Audit recommended that the
                                                       collection action (i.e., payments made and
IRS take the following actions: set goals and
                                                       liens filed) may have been taken on 7,825 of
standards for the Innocent Spouse Program;
                                                       the bankruptcy cases. A review of 420 of
upgrade the current management information
                                                       these cases identified 143 (34 percent)
system and ensure that it provides complete,
                                                       violations of the automatic stay provisions.
timely, accurate, and useful feedback; and,
design and implement a system of internal              As of January 2000, the IRS indicated that
controls that addresses the quantity, cost, and        only one taxpayer nationwide had filed an
timeliness of the Innocent Spouse Program.             administrative claim because of a violation of
                                                       the automatic stay provisions. However,
IRS management agreed with the
                                                       taxpayers may not be aware of their right to
recommendations and has initiated corrective
                                                       file administrative claims, and should they
action.
                                                       become aware, the number could increase
                                                       significantly. The RRA 98 allows taxpayers
                                                       to sue when an IRS employee willfully
                                                       violates the automatic stay provisions.
                                                       The Office of Audit recommended that IRS
                                                       management ensure that litigation transcripts
                                                       are monitored to identify any violations and

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                  18
                             Semiannual Report to the Congress



that appropriate action is taken if violations         $300,000 more in advanced EIC on
have occurred. The Internal Revenue Manual             Forms 941 than on Forms W-2. Employers
should be updated to include procedures for            can deduct a dollar-for-dollar credit against
refunding payments received after the                  their Form 941 taxes for advanced EIC
bankruptcy petition is filed. In addition,             payments. While only one percent of
employees should timely and effectively                employers claimed advanced EIC, they
address internal reports to resolve cases and          received 19 percent of the Form 941 refund
ensure posting of the bankruptcies to                  dollars issued by the IRS.
taxpayers’ accounts.
                                                       The IRS Criminal Investigation (CI) office
IRS management’s response was not received             investigates potential tax fraud, but until
prior to the issuance of the audit report.             recently had not been able to identify
                                                       Form 941 refund fraud. IRS CI has proposed
Opportunities Exist to Identify                        expanding its involvement in employer-based
Unreported Taxes from Employer’s                       refund fraud schemes.
Quarterly Federal Tax Returns
                                                       The Office of Audit recommended that IRS
(Reference No. 2000-30-146)
                                                       management increase Form 941 compliance
There are significant unresolved differences           efforts. In addition, IRS CI should follow
between the tax information reported by                through with its plan to expand its
employers to the IRS and the information               involvement in employer-based refund fraud
reported to the Social Security Administration         schemes.
(SSA). These discrepancies bring into
                                                       IRS management’s response was not received
question the accuracy of many Forms 941,
                                                       prior to the issuance of the audit report.
Employer’s Quarterly Federal Tax Return,
including taxes employers are reporting and
paying to the IRS, as well as refunds they are               Protecting Revenue and
receiving. The IRS can increase compliance                  Minimizing Tax Filing Fraud
efforts and identify potential unreported taxes
on Forms 941 by using data received from the           Letter Report: Internal Revenue
SSA.                                                   Service Efforts to Deal With Executor
The Office of Audit reported that in TY 1998,          Commissions Show Promise
employers might have underreported social              (Reference No. 2000-30-096)
security, Medicare, and withholding taxes on           Executors are paid millions of dollars in
their Forms 941. By using IRS’ data, the               commissions each year for administering
Office of Audit identified 491 employers that          estates and distributing the property of
potentially reported $5.4 billion less in wages        decedents. These commissions are deducted
to the IRS on their Forms 941 than they                on estate tax returns, and the executors are to
reported to the SSA on the Forms W-2, Wage             report the commissions on their individual
and Tax Statement.                                     income tax returns. As a result of a previous
                                                       Office of Audit report (Reference No.
In addition, employers nationwide potentially
                                                       970803, dated March 1997), the IRS
reported, on Forms 941, that they paid their
                                                       implemented a project that focused on early
employees $170 million in advanced EIC, but
                                                       intervention by sending inquiry letters to
the amount individual taxpayers reported on
                                                       executors who may not have reported their
their income tax returns was only $97 million.
                                                       commissions.
The 491 employers potentially claimed


                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                  19
                              Semiannual Report to the Congress



This follow-up review reported that the IRS’            population of all eligible EIC taxpayers,
early intervention project was successful. The          measure the extent of noncompliance, or
project identified $1.7 million in unreported           determine if planned activities will achieve
income which generated $527,000 of                      desired outcomes.
additional recommended taxes and interest
                                                        Each year, the IRS allocates resources and
liabilities, of which $515,000 (98 percent) has
                                                        implements activities designed to administer
been collected.
                                                        the EIC. The Congress has become
The Office of Audit recommended that the                concerned with the IRS’ ability to achieve full
IRS expand early intervention efforts                   participation by qualified taxpayers and
nationwide. A nationwide effort could further           reduce EIC noncompliance. The IRS
reduce unreported commissions.                          received $144 million in FY 2000 and will
                                                        receive another $145 million in FY 2001 to
IRS management agreed with the
                                                        fund its EIC activities. However, current
recommendation and will initiate corrective
                                                        activities and plans for the new IRS structure
action.
                                                        do not improve the way IRS processes EIC
                                                        returns. As the IRS implements its new
Management Advisory Report:                             organizational structure, and works to
Administration of the Earned Income                     implement GPRA, it should assess the EIC
Credit (Reference No. 2000-40-160)                      program to determine ways to improve
The EIC is a refundable credit created by the           compliance and identify EIC eligible
Congress in 1975 to offset the impact of                taxpayers who do not claim the credit.
Social Security taxes on low-income families
                                                        For this management advisory report, the
and to encourage low-income families to seek
                                                        primary purpose of the IRS’ response was to
employment rather than welfare. Since
                                                        present an overview of the current status of
inception of the EIC, the IRS has faced
                                                        the EIC compliance program. IRS
problems with a complex processing
                                                        management responded that it will soon
structure, implementation of legislative
                                                        release to the public the most recent EIC
changes, and a lack of reliable, current data on
                                                        study, Compliance Estimates for Earned
participation levels and noncompliance. The
                                                        Income Tax Credit Claimed on 1997 Tax
administration of the EIC has been forced into
                                                        Returns. This study will provide a starting
the IRS’ existing organizational structure,             point from which the IRS will be able to
resulting in conflicting goals and approaches
                                                        evaluate future efforts.
among functions that process approximately
$30 billion in EIC claims from over                     The response also stated that the IRS has
19 million taxpayers yearly.                            recently launched new enforcement efforts to
                                                        detect and prevent erroneous EIC claims
The Office of Audit reported that despite a             before tax refunds are paid. The IRS has also
wide range of audit work and studies
                                                        implemented a program aimed at educating
disclosing deficiencies and high-risk areas in
                                                        paid preparers, and is continuing other
the administration of the EIC, problems
                                                        outreach programs for state and local
continue to exist. The results of some of these
                                                        governments, faith-based organizations,
studies have not been reliable, are several             community groups, business leaders, and low
years old, and have not been used by the IRS
                                                        income taxpayer advocates.
to establish baselines. Without studies that
establish valid and reliable baselines, IRS
management cannot accurately identify the


                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                   20
                            Semiannual Report to the Congress



Procedures for Installment                           IRS management agreed with the audit
Agreements With In-Business                          recommendations and has issued revised
Taxpayers Need to Be Strengthened                    procedures.
(Reference No. 2000-30-123)
According to IRS records, businesses incurred             Providing Quality Customer
more than $11 billion in tax liabilities in                   Service Operations
FY 1999. Almost $7 billion of these new
delinquencies were for unpaid Form 941               Expanding the Electronic Tax Law
liabilities. If the taxpayer cannot fully pay        Assistance Program
these liabilities, the IRS considers allowing        (Reference No. 2000-30-120)
the taxpayer to make periodic (installment)
                                                     The IRS’ toll-free telephone system is the
payments. Because in-business taxpayers
                                                     cornerstone of its customer service operations.
may also potentially accrue additional
                                                     For FY 2000 (as of April 22), taxpayers
Form 941 liabilities, while in an installment
                                                     attempted over 62 million calls to the IRS’
agreement, IRS procedures require close
                                                     three main toll-free telephone lines to obtain
manual monitoring.
                                                     answers to their questions. In addition, the
The Office of Audit identified a number of           IRS uses the ETLA Program to answer tax
areas where procedures need to be improved.          law and procedural questions submitted by
Specifically, improvement is needed with the         taxpayers on the IRS’ Internet web site known
evaluation of in-business taxpayers’                 as the Digital Daily.
suitability for installment agreements, the
                                                     The ETLA Program offers an alternative to
monitoring of active agreements, and the
                                                     the telephone for taxpayers needing tax law
verification of basic financial information
                                                     assistance, while at the same time increasing
before granting installment agreements. In
                                                     accessibility and convenience. In FY 1999,
addition, 38 percent of the installment
                                                     IRS’ ETLA answered over 264,000 tax law
agreements reviewed by the Office of Audit
                                                     questions, with nearly 350,000 expected for
showed that the agreements were not
                                                     FY 2000.
manually monitored consistently for
compliance with their terms. The Office of           The Office of Audit reported that the IRS’
Audit also reported that the IRS does not            ability to provide effective and efficient
maintain basic management information                electronic tax law assistance is adversely
regarding manually monitored installment             affected by the current system design. The
agreements.                                          ETLA design is basically a manual
                                                     correspondence system with the Internet used
The Office of Audit recommended that IRS
                                                     only to transmit the questions and answers.
management develop additional guidance to
                                                     For the past six years, the ETLA Program has
ensure sufficient research is performed to
                                                     remained a research project and has not
accurately determine in-business taxpayers’
                                                     progressed beyond the original system design.
suitability for installment agreements, and
                                                     Although the initial concept and design were
revise current agreement monitoring
                                                     innovative in 1994, the rapid growth of the
procedures to improve their effectiveness and
                                                     Internet and technology has directly affected
efficiency. In addition, management should
                                                     the program. The current system design will
implement a uniform methodology for coding
                                                     not significantly help achieve the IRS’ goals
manually monitored installment agreements
                                                     of making electronic communication so
so essential management information can be
                                                     simple, inexpensive, and trusted that
easily obtained and evaluated.

                    Treasury Inspector General for Tax Administration
                                  September 30, 2000

                                                21
                              Semiannual Report to the Congress



taxpayers will prefer it to calling and mailing;        the service the IRS provided to Small
and, substantially increasing taxpayer access           Business/Self-Employed taxpayers.
to electronic communication products and
                                                        The Office of Audit reported that the ETLA
services.
                                                        Program responded correctly to 54 percent of
The Office of Audit recommended that the                the questions, while the commercial web sites
IRS leverage technology that will provide               provided correct answers 47 percent of the
enhanced access to tax information, maximize            time. All responses from both sites were
efficiency, and improve electronic customer             received within four days. The IRS
service. The IRS also needs to fully commit             responded within two days for 90 percent of
to the ETLA Program by converting it from a             the questions. The commercial web sites
long-term research project to a fully supported         provided quicker responses, either the same
independent function. Until there are                   day or the following day for 81 percent of the
technological changes and an organizational             questions. However, the customer
commitment, the IRS needs to delay the                  satisfaction surveys show that over 90 percent
marketing of the ETLA Program. In the                   of the taxpayers who used the ETLA Program
interim, the IRS should expand the ETLA                 were satisfied with the IRS’ response times.
Program to additional call sites.
                                                        This review was a management advisory
IRS management agreed with all of the facts             study and provided information to IRS
reported, however, they disagreed with most             management for their use; therefore, the
recommendations. The Office of Audit is                 Office of Audit did not provide
drafting a response to the IRS Commissioner             recommendations and no management
on the disagreed recommendations.                       response was required.

Management Advisory Report:
                                                                  Managing Finances
Comparison of Responses to Small
Business/Self-Employed Taxpayer
                                                        Letter Report: Improvements Are
Questions From the Electronic Tax
                                                        Needed in the Internal Revenue
Law Assistance Program and Other
                                                        Service’s Federal Financial
Internet Tax Law Services
                                                        Management Improvement Act
(Reference No. 2000-30-126)
                                                        Remediation Plan
The Office of Audit conducted this study to             (Reference No. 2000-10-105)
provide the Customer Service function with a
                                                        The Office of Audit assessed the IRS’
qualitative comparison of the responses
                                                        compliance with the FFMIA and reported that
submitted by the ETLA Program and free
                                                        the IRS’ financial management systems do
commercial Internet web sites to Small
                                                        not comply with the federal financial
Business/Self-Employed tax law questions.
                                                        management systems requirements, federal
To avoid having an adverse effect on the                accounting standards, or the U.S. Government
ETLA Program and commercial web sites                   General Ledger. As required, the IRS
during the filing season, the Office of Audit           prepared a remediation plan to bring its
limited the number of questions it introduced           financial management systems into
into both systems to 50. Consequently, the              compliance.
results are not statistically valid. However,
                                                        The Office of Audit reported that, overall, the
the sample is sufficient to provide insight into
                                                        remediation plan is reasonable and is
                                                        consistent with the Department of Treasury’s

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                   22
                              Semiannual Report to the Congress



standard financial management system                    ADP property management was a significant
template. The remedies included in the plan             factor contributing to the condition of its ADP
appear sound, directly address the reported             property records, the IRS designated a
weaknesses, and provide long-term solutions.            responsible executive.
However, the remediation plan does not fully
                                                        The IRS has made substantial progress to
comply with the FFMIA requirements.
                                                        ensure control and accountability over its
Specifically, the plan does not include or is
                                                        ADP property; however, additional actions
not clear on all reported weaknesses; target
                                                        are needed. The Office of Audit
dates were not always identified or exceeded
                                                        recommended that the IRS verify the results
the three-year time frame without the Office
                                                        of its inventory reconciliation process prior to
of Management and Budget concurrence; and,
                                                        forwarding ADP certifications to the IRS
resource commitments were not always
                                                        Commissioner. Also, the IRS needs to fully
identified or clear. Without full compliance
                                                        implement the Single Point Inventory
with FFMIA, the IRS cannot ensure that all
                                                        Function to ensure the accuracy of the
financial management weaknesses are
                                                        inventory and to minimize the risk of
resolved adequately and timely.
                                                        continued criticism of its financial records.
The Office of Audit recommended that IRS
                                                        IRS management agreed to the
management ensure that reported weaknesses
                                                        recommendations and has developed an
are clearly included in the remediation plan,
                                                        implementation schedule for its corrective
and target dates and resource commitments
                                                        actions.
are clearly identified for each weakness.
Also, IRS management should promptly
notify the Department of Treasury of all target                   Implementing GPRA
dates that exceed the three-year limit so that
the Department can seek appropriate                     The Office of Audit issued six reports that
concurrence.                                            assessed IRS’ efforts to implement customer
                                                        satisfaction GPRA measures. The overall
Overall, IRS management agreed with the
                                                        audit objectives, recommendations, and
recommendations. However, IRS
                                                        corrective actions for these reports are
management indicated that the lack of a
                                                        included in Appendix VII.
standardized general ledger was adequately
addressed in the plan. Nonetheless, the IRS
took further action to clarify this issue, which            Addressing the Impact of the
satisfied the Office of Audit’s                               Global Economy on Tax
recommendation.                                                   Administration
Improvements Are Needed to Ensure                       Opportunities Exist to Enhance the
Control and Accountability Over                         International Field Assistance
Automated Data Processing Assets                        Specialization Program
(Reference No. 2000-10-145)                             (Reference No. 2000-30-130)
The IRS has had problems controlling and                The International Field Assistance
accounting for its Automated Data Processing            Specialization Program (IFASP) was
(ADP) property, as reported by the GAO                  established to provide technical assistance in
when it identified this area as material                the examination of complex international tax
weaknesses in FY 1999. Recognizing that the             issues. The expected benefits included
lack of an organization solely dedicated to             increased revenue raising capabilities, fewer

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                   23
                             Semiannual Report to the Congress



disputes due to better developed issues, and          TIGTA ASSISTS FOREIGN TAX
less time spent on examinations.                      ADMINISTRATION
The Office of Audit reported that the IFASP
is an important resource to the International         In January 2000, TIGTA detailed an audit
Enforcement Program and is staffed with               manager to the Treasury Department’s Office
experienced international examiners who are           of Technical Assistance for a two-year
trained in complex areas of international law.        assignment as a resident advisor to Georgia
However, limitations of the management                (the former Soviet Union Republic of
information system prevent the IRS from               Georgia). As a direct result of this specialized
determining whether the IFASP was realizing           tax policy and administration assistance, the
the benefits expected.                                President of Georgia established the first
                                                      Office of the Inspector General (OIG) in
Opportunities exist to enhance the ability of         June 2000. In July, the Georgian President
the IFASP to provide assistance to the                appointed the first IG for the Tax Revenue
International Enforcement Program, a                  Ministry of Georgia (TRMG).
program that recommends approximately
$2.1 billion in additional taxes annually. The        The new OIG is responsible for oversight of
Office of Audit recommended that the IFASP            the TRMG, which consists of the Tax and
indicator in the International Case                   Customs Departments, Excise Stamp Service,
Management System be linked to the specific           and the Ministry. The OIG has two primary
international issues that the IFASP helped            functions, audit and investigations. The
develop. Also, more information should be             TIGTA resident advisor continues to provide
accumulated and disseminated electronically           technical assistance on all matters concerning
through the IRS’ Intranet site.                       the OIG, such as legislative and
                                                      organizational issues; audit and investigative
IRS management agreed with the                        standards, methodologies, policies, and
recommendations and has initiated corrective          procedures; and, audit and investigation
actions.                                              planning and programs.




                    Treasury Inspector General for Tax Administration
                                  September 30, 2000

                                                 24
                              Semiannual Report to the Congress



             Treasury Inspector General for Tax Administration
                          Office of Investigations

INTRODUCTION                                           presentations for IRS employees and various
                                                       professional organizations, including local
The Office of Investigations administers               law enforcement agencies, tax practitioners,
investigative programs that protect the                and community groups. During this reporting
integrity of the IRS and detect and prevent            period, the Office of Investigations conducted
fraud and other misconduct within IRS                  702 presentations for 30,137 individuals.
programs. This includes investigating                  Approximately 87 percent of these individuals
allegations of criminal violations and                 were IRS employees.
administrative misconduct by IRS employees,            The Office of Investigations conducts
as well as protecting IRS employees from
                                                       investigations that protect taxpayers from IRS
external threats.
                                                       employees who commit criminal violations,
Specifically, these areas of responsibility            and administrative misconduct. These
include:                                               investigations may involve allegations of
                                                       unauthorized access to and disclosure of
•   Administering programs to protect IRS
                                                       confidential taxpayer information, bribery,
    employees from violence.                           financial fraud, false statements, and abuse of
•   Operating a national complaint center,             taxpayer rights. During this six-month
    including a hotline, to receive and process        reporting period, the Office of Investigations
    allegations of fraud, waste, or abuse.             completed 824 employee investigations.
•   Providing forensic examination of                  The Office of Investigations is also committed
    documentary evidence.                              to protecting and supporting IRS employees
•   Providing technical and investigative              as they carry out the mission of the IRS.
    assistance, equipment, training, and other         TIGTA investigates individuals who attempt
    specialized services to enhance                    to interfere with or corrupt the administration
    investigative operations.                          of the federal income tax system, to include
•   Administering a proactive program to               investigations of bribery, assault, threat, theft,
    detect and deter fraud in IRS programs             and embezzlements. During this reporting
    and operations.                                    period, the Office of Investigations completed
                                                       1,201 investigations involving these types of
                                                       allegations.
PROTECTION OF TAXPAYERS AND
IRS EMPLOYEES                                          When an investigation determines that a
                                                       taxpayer has been financially or procedurally
TIGTA is dedicated to ensuring taxpayers and           harmed by employee misconduct, TIGTA
IRS employees the highest degree of integrity,         notifies the IRS so that appropriate action can
fairness, and trust in the nation's tax                be taken. TIGTA has notified the IRS on
administration system. To heighten                     issues such as the unlawful inspection or
awareness and provide a deterrent effect
against fraud and misconduct, TIGTA special
agents routinely conduct integrity awareness



                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                  25
                                 Semiannual Report to the Congress



disclosure of taxpayer returns or return                    violations (see Appendix V for a summary of
information13 and the embezzlement or theft                 Section 1203 standards).
of tax payments.
                                                            TIGTA is dedicated to protecting taxpayers
                                                            against abuse and misconduct while also
Complaint Management Division                               ensuring that IRS employees are not the
                                                            subject of Section 1203 investigations that
The Complaint Management Division (CMD)                     have no basis. During this reporting period,
is a centralized clearinghouse for processing               TIGTA received 257 allegations involving
and tracking allegations of fraud, waste, and               potential Section 1203 violations.
abuse and other forms of wrongdoing. CMD
                                                            Investigations are opened on Section 1203
operates a toll-free telephone number, which
                                                            allegations where it has been determined,
is advertised both inside and outside the IRS.
                                                            through preliminary analysis, that there is a
CMD also receives complaints through an
                                                            basis for the allegation. The only exceptions
e-mail address and a central post office box.
                                                            are Sections 1203(b)(8) and (b)(9) which
CMD’s complaint tracking system provides a
                                                            relate to timely and full payment of taxes. In
centralized accounting of all complaints
                                                            some situations, the IRS resolves these issues
received by TIGTA and the status and final
                                                            fully and a TIGTA investigation is not
dispositions of those complaints. The system
                                                            required.
also has the capability to document and track
complaints involving multiple subjects. To                  TIGTA initiated 164 investigations during
ensure that all complaints received by TIGTA                this reporting period related to alleged Section
are acknowledged, complainants are provided                 1203 violations. Of these, 132 are currently
with a Complaint Number. Also,                              ongoing and 32 are closed. Twenty-five of
complainants are provided with a telephone                  the 32 closed investigations were referred to
number to contact TIGTA if they want to                     the IRS for administrative adjudication. The
provide additional information regarding their              referred cases consist of both substantiated
complaint.                                                  and unfounded Section 1203 allegations. IRS
                                                            issues clearance letters to IRS employees
During the reporting period, TIGTA received
                                                            where the allegations are unfounded.
4,763 complaints. The status of these
complaints is shown in Appendix II.                         Under Section 1203, the IRS terminated
                                                            15 employees and mitigated one other case to
                                                            a lesser administrative action during this
Section 1203 Violations                                     reporting period. One termination was the
                                                            result of a TIGTA investigation.
Section 1203 of RRA 98 provides for the                     Some Section 1203 violations, related to
mandatory termination of an IRS employee if                 internal IRS procedures, require the IRS to
the employee commits specific misconduct                    provide TIGTA with a preliminary
                                                            assessment of whether the internal procedures
13
  A provision of the Taxpayer Browsing                      appear to have been violated. During the
Protection Act of 1997, I.R.C. § 7431(e), provides          reporting period, TIGTA received
for notification to taxpayers of the unlawful               108 complaints that were referred to the IRS
inspection or disclosure of their returns and return        for this type of preliminary inquiry.
information in cases where an IRS employee is
charged criminally for violations of unauthorized
access of disclosure of returns or return
information.

                       Treasury Inspector General for Tax Administration
                                     September 30, 2000

                                                       26
                                  Semiannual Report to the Congress



Strategic Enforcement Division                         perpetrating the same type of violation.
                                                       Computer matching is used nationwide in
The SED proactively identifies and initiates           proactive projects. These projects are
criminal investigations involving fraud and            included in Computer Matching Act15
abuse of IRS computer systems and violations           agreements approved by the Department of
of the Taxpayer Browsing Protection Act of             the Treasury’s Data Integrity Board and
1997.14 SED combines the talents of auditors,          published in the Federal Register.
special agents, and computer programmers
into an investigative team to accomplish its           UNAX Detection Project
mission.                                               The UNAX Detection Project is SED’s most
SED has developed an aggressive program for            aggressive national investigative initiative.
detecting fraud in IRS operations and                  The Audit Trail Lead Analysis System
unauthorized accesses (i.e., UNAX) to                  (ATLAS) detects potential unauthorized
confidential tax data on IRS computer                  accesses to electronic taxpayer records on IRS
systems.                                               computer systems. During this six-month
                                                       period, SED identified and analyzed 296 leads
SED also provides extensive investigative and          of potential unauthorized accesses to tax
forensic data analyses to the field special            information by IRS employees. This resulted
agents on their criminal investigations.               in 123 referrals to field special agents.
SED’s computer investigative specialists
assist special agents in seizing computers,            SED provided assistance in a number of
analyzing computer-related evidence, and               cases, including:
conducting searches on the Internet.                   •      In January 2000, a federal grand jury
SED maintains computer research and                           returned an indictment charging an IRS
reference equipment and assesses technical                    employee with one count of mutilation of
threats to the integrity of IRS' network. SED                 records and 20 counts of unauthorized
conducts proactive security testing to ensure                 access. In March 2000, the employee
that adequate safeguards are in place to                      pled guilty to one count of mutilation of
defend against newly identified network                       records and one count of unauthorized
vulnerabilities, as well as newly disseminated                access. In June 2000, the IRS employee
hacker tools found throughout the Internet.                   was sentenced to 120 days of home
Threat advisories are disseminated to IRS,                    confinement, four years probation, and
Department of the Treasury, and a number of                   fined $1,125. The employee also was
other federal agencies.                                       ordered to participate in a mental health
                                                              treatment program and to have no contact
                                                              with the taxpayers whose accounts were
National Investigative Initiatives
                                                              accessed.
Proactive investigative initiatives are a key                 The investigation was initiated after four
part of SED’s operation. Projects are initiated               tax remittance checks were found on the
based on information developed during                         street. When interviewed by TIGTA, the
successful investigations. The methodology                    employee admitted to disposing of “40 to
of the crime becomes the basis for developing                 60” tax remittances and numerous tax
computer database applications that will                      documents improperly. The investigation
identify other individuals who may be                         revealed the employee had also made

14                                                     15
     Pub. L. No. 105-34, 111 Stat. 1104 (1997)              Pub. L. No. 101-56, 103 Stat. 149 (1989)

                        Treasury Inspector General for Tax Administration
                                      September 30, 2000

                                                  27
                              Semiannual Report to the Congress



    unauthorized accesses to the tax accounts           Technical and Forensic Support
    of six taxpayers. The employee resigned             Division
    from the IRS.
•   In August 1999, an IRS employee was                 The Technical and Forensic Support Division
    charged by a grand jury with robbery,               is responsible for implementing programs
    unauthorized access of a computer in                concerning Technical Services and the
    furtherance of a criminal or tortuous act,          Forensic Science Laboratory (FSL). Each of
    solicitation to murder, attempted murder,           these programs provides technical expertise
    and intimidation of a federal witness. The          throughout the development and the
    employee used confidential taxpayer                 adjudication process of investigations.
    information to locate, threaten, and plot to
    kill a night manager of a fast food                 Technical Services
    restaurant. The IRS employee had
    allegedly robbed the manager and the                Technical Services is responsible for
    employee knew the manager would                     providing technical and investigative
    identify and testify against the employee           assistance, equipment, training, and other
    in court.                                           specialized services to enhance TIGTA’s
    The SED determined through an audit                 investigative activities. Technical Services
    trail that the employee had searched IRS’           provides crucial support in the collection,
    computer system and obtained the                    preservation, and enhancement of evidence.
    victim’s address and other personal                 Technical Services provides audio and video
    information. The employee used the                  investigative equipment, and assists special
    information to threaten and intimidate the          agents in using these tools.
    witness from cooperating with law                   An example of the type of investigative
    enforcement officials. The employee                 support provided by Technical Services
    attempted to persuade an associate to kill          follows. An individual attempted to extort
    the victim. In April 1999, the employee             $190,000 by sending several fictitious IRS
    was terminated from the IRS on unrelated            collection documents to a victim. Repeated
    issues.                                             visits by the individual to an express mailing
    In May 2000, the employee was tried and             center were captured on videotape. Technical
    found guilty on one count of interference           Services produced composite video prints that
    with interstate commerce by robbery; two            positively identified the individual and the
    counts of use of a firearm in a crime of            individual’s vehicle. The video also showed
    violence; one count of unauthorized                 the individual mailing the fictitious letters to
    access of a computer in furtherance of a            the victim. The individual was arrested and
    criminal or tortuous act; and, one count of         indicted on three counts of misuse of official
    solicitation to murder a federal witness.           department or agency seals. In
    In August 2000, the IRS employee was                September 2000, the individual pled guilty to
    sentenced to more than 40 years                     one count of the indictment.
    incarceration without chance for parole,
    five years supervised release, $1,900               Forensic Science Laboratory
    restitution, and a $600 special assessment.
                                                        Successful criminal investigations often rely
                                                        on the forensic analysis of evidence. The FSL
                                                        supports field investigations through the


                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                   28
                               Semiannual Report to the Congress



timely processing of physical evidence using                  was sentenced to a pre-trial diversion
forensic techniques to identify investigative                 program for committing false
subjects. These techniques include chemical                   impersonation and mail fraud. The
processing and comparison for latent prints,                  individual is currently serving 18 months
handwriting identification, digital image                     probation.
enhancement, and document chemistry.                      •   An individual claimed to have visited the
During this six-month period, the FSL                         IRS and to have made a $2,500 cash
received 129 case submissions, issued                         payment. The individual stated a
108 reports of laboratory examination, and                    non-standard IRS receipt with an IRS date
evaluated 3,310 items of physical evidence.                   stamp indicating receipt of payment was
                                                              provided. The individual accused an IRS
The FSL examined evidence from a number                       employee of issuing the false receipt and
of cases, including:                                          personally retaining the cash payment.
• In August 2000, an inmate was found                         IRS records showed that a $2,500
    guilty of mailing a request for information               payment was made and that the check was
    to the IRS in an attempt to locate a former               dishonored.
    friend whom the inmate had been stalking                  The FSL determined that the date on the
    and harassing since 1993. Handwriting                     receipt had been altered and that
    analysis by the FSL determined that the                   differences in physical ink characteristics
    taxpayer’s signature was forged. The                      indicated the date and the dollar amount
    inmate is awaiting sentencing for this                    entries were not written
    matter and is currently serving nine years                contemporaneously with the original date,
    on unrelated state charges.                               payee entry, comment, and receiver
• Individuals filed complaints regarding the                  signature. The individual admitted to
    receipt of fictitious audit letter notices and            creating the questioned receipt. The
    requests for specific documentation.                      Assistant United States Attorney declined
    Interviews with the individuals indicated                 prosecution. The individual's admission
    that they suspected an IRS employee of                    resulted in the IRS employee’s
    sending the harassing notices in                          exoneration.
    retaliation for their role in firing the
    employee's friend. The FSL processed
                                                          SIGNIFICANT INVESTIGATIONS
    the notices and forms for latent
    fingerprints and identified the prints of
    the IRS employee and the friend on
                                                          Disclosure and Improper Computer
    numerous forms. In April 2000, the IRS                      Access Investigations
    employee was indicted on two counts of
    mailing fictitious correspondence.                    The following investigations resulted from
                                                          national investigative initiatives, including the
• An individual altered and mailed a                      UNAX Detection Project, and investigative
    fraudulent lien release to the IRS to show            strategies involving abuse of IRS computer
    that the individual’s federal income tax              systems, and disclosure of confidential
    liability had been satisfied. A FSL                   taxpayer records by IRS employees.
    examination confirmed that this lien
    release was a forged photocopy. As a
    result of the FSL finding, the individual
    subsequently confessed to committing
    this crime. In August 2000, the individual

                      Treasury Inspector General for Tax Administration
                                    September 30, 2000

                                                     29
                             Semiannual Report to the Congress



IRS Employee Pled Guilty to                            friend pled guilty to conspiracy under a plea
Unauthorized Access                                    agreement.
In March 2000, an IRS employee pled guilty
                                                       IRS Employee Pled Guilty to
to one count of unauthorized inspection of tax
                                                       Unauthorized Disclosure and Fraud
return information. The employee accessed
the account of a relative without authorization        Based on an allegation, TIGTA initiated an
or for official business. The employee was             investigation concerning misuse of an IRS
sentenced to six months in jail, one year              employee’s position. The employee solicited
supervised release, and ordered to pay $630 in         a bank loan under preferential conditions and
fines and court costs. The employee resigned           a vehicle repair from a taxpayer in exchange
upon hearing of the investigation.                     for delaying IRS collection efforts. In
                                                       July 2000, the employee was indicted by a
IRS Employee Pled Guilty to                            federal grand jury on nine counts of bribery,
Unauthorized Use                                       extortion, unlawful acts of revenue officers or
                                                       agents, fraud, and related activity in
In June 2000, an IRS employee was sentenced
                                                       connection with computers, and unauthorized
to 12 months probation after pleading guilty
                                                       disclosure of information. In August 2000,
to one count of unauthorized use of a
                                                       the individual pled guilty to one count of
government computer. A complaint was
                                                       unauthorized inspection of return or return
received alleging that the employee created
                                                       information, one count of fraud and related
and submitted a fraudulent IRS document to a
                                                       activity in connection with computers, and
financial institution. The investigation
                                                       received a one-year suspended sentence. In
revealed that the employee accessed a tax
                                                       August 2000, the employee resigned from the
account and subsequently used the name and
                                                       IRS.
Social Security Number on that tax account to
obtain local cable service at the employee's
residence. The employee was terminated                          Bribery Investigations
from the IRS.
                                                       As a result of their responsibilities and
IRS Employee and an Individual                         frequent contact with taxpayers, many IRS
Charged with Conspiracy, Unlawful                      employees can be targets for bribery. Their
Computer Access, and Unauthorized                      positions also provide unscrupulous
Disclosure                                             employees opportunities to extort and solicit
                                                       bribes from taxpayers and to conspire with
In February 1999, a friend of an IRS
                                                       individuals who could threaten the integrity of
employee asked the employee for the address
                                                       the tax administration process.
of the friend’s separated spouse. The
employee accessed IRS computer records and             Bribery is often a focus of TIGTA’s integrity
obtained the address and other tax information         awareness presentations. IRS employees are
concerning the spouse. The employee                    educated on how to recognize bribe overtures
subsequently provided this information to the          and their responsibilities in reporting bribe
friend. In June 2000, the IRS employee and             attempts. TIGTA also educates employees
the friend were indicted on conspiracy to              about their responsibility to maintain a high
defraud the U.S. The employee was also                 standard of integrity. TIGTA presentations
charged with unlawful computer access and              have a deterrent effect and could dissuade
disclosure of tax information. In                      employees from taking inappropriate
September 2000, the IRS employee and the               advantage of their positions.


                    Treasury Inspector General for Tax Administration
                                  September 30, 2000

                                                  30
                             Semiannual Report to the Congress



During this reporting period, the Office of           Individual Charged with Bribery
Investigations completed 37 bribery
                                                      In February 2000, an individual was indicted
investigations.
                                                      by a federal grand jury for bribery of a public
                                                      official. The investigation began after an IRS
Representative and Client Arrested for
                                                      employee reported a bribe overture from a
Bribery of IRS Employees
                                                      taxpayer. During a subsequent contact, the
An IRS employee reported to TIGTA what                taxpayer provided $300 and advised the
the employee felt was a bribe offer by a              employee that it was for totally eliminating
taxpayer’s representative during a meeting for        the taxpayer’s $1,600 tax liability. In
a tax audit. At a subsequent meeting with the         August 2000, the individual pled guilty to
representative, which was monitored by                bribery and was sentenced to three years
                                                      probation and fined $1,900.
TIGTA special agents, the client paid the IRS
employee $2,000 for an $80,000 reduction of
                                                      Former IRS Employee Pled Guilty to
potential tax liability.
                                                      Conspiracy
The representative later offered additional
                                                      In May 2000, a former IRS employee and an
bribes affecting the accounts of other
                                                      individual were indicted for conspiring to
taxpayers. The representative paid the IRS
                                                      defraud the U.S. government. The former
employee and another cooperating IRS
                                                      IRS employee prepared and sent fraudulent
employee cash bribes totaling $3,500 for
                                                      release of IRS levy documents to three
reducing three other taxpayers’ liabilities of
                                                      attorneys involved in the individual’s pending
approximately $150,000. In March 2000,
                                                      lawsuit settlement. The individual admitted
TIGTA special agents arrested the
                                                      to agreeing to pay the former IRS employee a
representative and the client. Upon interview,
                                                      percentage of the levy amount, totaling
the representative admitted to paying bribes.
                                                      approximately $2,000, in order to have the
Evidence did not indicate that the other three
                                                      levy released. In July 2000, the former IRS
taxpayers had direct involvement in the bribe
                                                      employee and the individual pled guilty to
scheme.
                                                      conspiracy and false statements.
IRS Employee and Dentist Indicted for
                                                      IRS Employee Charged with Bribery
Conspiracy and Bribery
                                                      A special agent with the IRS CI office
A TIGTA investigation revealed that an IRS
                                                      reported discovering fraudulent federal
employee was receiving free dental treatment
                                                      income tax returns that were used in a tax
from a dentist in exchange for abating
                                                      preparer’s bank fraud scheme. The preparer
approximately $20,000 in tax penalties and
                                                      subsequently admitted to paying an IRS
interest, and lowering the dentist’s monthly
                                                      employee $200 to stamp the returns as though
tax installment payment from $5,000 to
                                                      the returns had been received by the IRS,
$3,000 per month. A search warrant resulted
                                                      when in fact the returns were only used in the
in locating evidence that corroborated the
                                                      bank fraud scheme. TIGTA, with the
bribes. The investigation substantiated that
                                                      assistance of IRS CI, prepared four fraudulent
the employee received approximately $10,000
                                                      tax returns using the identity of a fictitious
in free dental treatments. In April 2000, the
                                                      taxpayer. The IRS employee subsequently
employee and dentist were indicted for
                                                      date-stamped those returns at the preparer’s
conspiracy, and offering and accepting a
                                                      home during a meeting monitored by TIGTA
bribe. The employee was immediately
                                                      special agents. In June 2000, the tax preparer
terminated.

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                 31
                              Semiannual Report to the Congress



pled guilty to charges of making false                  with two counts of wire fraud. The
statements. In July 2000, the IRS employee              indictment charged the couple with falsifying
was indicted on two counts of bribery and               IRS documents to make it appear as though
shortly thereafter resigned after being                 they had paid their tax debt of $66,000 in an
confronted by TIGTA special agents.                     effort to gain approval for two loans totaling
                                                        over $350,000. The loans were used to
                                                        purchase a new home and to refinance an
  Theft, Embezzlement and Fraud
                                                        existing home. The couple defaulted on the
           Investigations                               loans. During the foreclosure process, the
                                                        lending institution contacted the IRS to verify
TIGTA investigates incidents of theft,
                                                        the authenticity of the IRS documents. The
embezzlement, and fraud committed by both
                                                        IRS determined that no such documents had
internal and external sources. TIGTA also
                                                        been issued and reported the incident to
investigates incidents of impersonation where
                                                        TIGTA.
individuals attempt to defraud taxpayers.
                                                        Individual Pled Guilty to Altering and
Individual Convicted of Using a
                                                        Forwarding Fraudulent IRS Levy
Fraudulent IRS Certification
                                                        Releases
In 1996, an individual filed for a $675,000
                                                        A federal grand jury returned an indictment
loan guaranteed by the Small Business
                                                        charging an individual with two counts of
Administration (SBA). To support the loan
                                                        altering, and publishing as true, two IRS levy
application, the individual submitted fictitious
                                                        releases. In April 2000, the individual pled
tax returns for 1993, 1994, and 1995
                                                        guilty and was sentenced to two years
indicating the individual had earned over
                                                        probation and ordered to repay the almost
$3 million. The returns further identified the
                                                        $8,000 that the IRS failed to recover as a
individual by an alias with someone else’s
                                                        result of the fraudulent levy releases. TIGTA
Social Security Number. In addition, the
                                                        initiated an investigation after receiving a
individual sent the SBA an IRS Taxpayer
                                                        suspicious IRS levy release in the name of the
Account Information Letter purported to have
                                                        individual. The levy release contained a
been issued by the Taxpayer Service Division.
                                                        current date but was purportedly signed by an
Believing the letter to be authentic, the               IRS employee who had been retired for some
underwriting lending institution approved the           time. The investigation determined that the
loan. The individual spent the loan proceeds            individual subsequently forwarded a second
on houses, cars, and other personal items               fraudulent IRS levy release. When
which were in violation of the terms of the             interviewed, the individual admitted to
loan agreement, and subsequently defaulted              preparing and forwarding both fraudulent IRS
on the loan. The IRS Taxpayer Account                   levy releases.
Information Letter was determined to be false.
In September 2000, the individual was                   Four Individuals Pled Guilty to
convicted for making false statements and               Impersonation
using someone else’s Social Security Number.
                                                        In March 2000, a taxpayer reported that two
                                                        individuals, posing as IRS agents, arrived at
Couple Indicted on Wire Fraud                           the taxpayer’s home demanding money to
Charges                                                 eliminate a $500,000 outstanding tax liability
In May 2000, a federal grand jury returned an           and threatening asset seizure and a prison
indictment against a couple, charging each              term. After paying a total of $70,000, the

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                   32
                              Semiannual Report to the Congress



taxpayer contacted TIGTA special agents.                 submitted it to a mortgage broker to secure a
Four individuals were arrested after TIGTA               new loan and stop the foreclosure. An IRS
special agents observed the taxpayer make                employee received a copy of the altered
delivery of what the imposters believed to be            document from a title company and noticed
a final payment of $80,000. All of the                   irregularities. The individual was sentenced
defendants pled guilty to impersonating an               to one year probation and ordered to pay court
officer or employee of the U.S. In July 2000,            costs.
two individuals were sentenced to five and
three years probation, respectively. Fines               IRS Employee Arrested on
totaled $15,000 and restitution was $70,000.             Embezzlement Charges
Sentencing is pending for the remaining two
                                                         In August 2000, TIGTA special agents
individuals.
                                                         arrested an IRS employee on federal
                                                         embezzlement charges. In January 2000, the
Three Individuals Involved in a Tax
                                                         employee received $3,000 in U.S. Postal
Refund Scheme Pled Guilty
                                                         money orders as payment on a taxpayer’s tax
An individual, with the support of a spouse              liability. The employee did not process the
and sibling, managed a tax preparation and               tax remittances. In late July 2000, the
consulting business, which they used to                  employee provided the money orders to the
defraud approximately $300,000 from                      employee’s landlord as partial payment on
taxpayers and the U.S. Government. This                  overdue rent. The money orders had been
case was initiated when one of the clients               altered to reflect the landlord as payee and the
provided a TIGTA special agent with a                    employee as payer. The original payee and
fraudulent IRS certified letter demanding                payer information was still visible on the
payment. In June 2000, the sibling pled guilty           money orders. In September 2000, the
to conspiracy and mail fraud and the spouse              employee pled guilty to converting the
pled guilty to theft of identification.                  property of another.
In August 2000, the spouse was sentenced to
                                                         IRS Employee Pled Guilty to Making
six months home confinement, $5,000
                                                         False Statements
restitution, and five years supervised
probation. In September 2000, the individual             In May 2000, an IRS employee pled guilty to
and sibling were sentenced to 27 and 24                  two counts of making false statements to the
months confinement, respectively. In                     government. TIGTA’s investigation revealed
addition, each received three years supervised           that the employee had overlooked significant
probation, a $300 special assessment fee, and            audit issues on a number of cases. The
both were ordered to pay a combined amount               employee arranged for co-conspirators to
of $45,400 in restitution.                               represent individuals concerning IRS audits
                                                         and returns. The co-conspirators received
Individual Pled Guilty to Forgery                        money from the individuals in the employee’s
                                                         case inventory. Falsified documents were
In April 2000, an individual pled guilty to
                                                         submitted to the IRS to substantiate false
state forgery charges for altering an IRS letter.
                                                         deductions developed by the employee and
In November 1997, the individual was issued
                                                         co-conspirators. A subsequent audit of the
an official IRS letter to refinance a home loan.
                                                         returns prepared by the employee and
In October 1999, the individual was issued a
                                                         co-conspirators resulted in additional
foreclosure deadline. The individual
                                                         assessments of approximately $1.07 million.
subsequently altered the official IRS letter and
                                                         In July 2000, the IRS employee received a

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                    33
                               Semiannual Report to the Congress



one year suspended sentence, 150 hours of                IRS Employee Convicted in Money
community service, and a $100 special                    Laundering Scheme
assessment.
                                                         In May 2000, a federal jury convicted an IRS
                                                         employee on 47 counts of wire fraud, money
Two Individuals Charged with Grand
                                                         laundering, and filing false tax returns. The
Theft
                                                         employee’s spouse was a night manager at a
An IRS employee reported paying their                    local grocery store and defrauded the store in
supervisor in exchange for advanced sick                 excess of $400,000 using several different
leave. Initially, the supervisor lied by stating         money order and wire transfer fraud schemes.
that the payment represented a repayment of a            The U.S. Secret Service and IRS CI
loan. After failing a polygraph examination,             conducted the investigation on the spouse that
the supervisor admitted taking a bribe in                resulted in eight federal counts of stealing
exchange for the paid leave. In April 1999,              money orders and filing false tax returns. In
the employee resigned. In November 1999,                 June 1999, the spouse pled guilty to those
the supervisor was terminated. The                       charges and cooperated in the case against the
supervisor and the employee were prosecuted              employee. A referral was made to TIGTA
by the local district attorney’s office for grand        regarding the employee's role in the thefts.
theft. Both individuals were sentenced in                The IRS employee had a high limit account at
June 2000, and received three years probation            a Reno casino, made numerous gambling trips
and 120 hours of community service. In                   to Nevada, and gambled with the embezzled
addition, both were ordered to pay restitution           funds. The gambling debts were paid with the
to the federal government in the amount of               money stolen from the spouse’s place of
$1,500 and court costs.                                  employment. The employee was terminated
                                                         in June 2000.
IRS Employee Pled Guilty to
                                                         In September 2000, the employee was
Fraudulently Negotiating Stolen
                                                         sentenced to serve 51 months in prison with
Refund
                                                         five years probation. The employee was
In July 2000, an employee pled guilty to                 ordered to pay $38,000 in restitution and was
stealing and fraudulently negotiating                    fined $4,500 in special assessments.
approximately $7,100 in stolen IRS refund
checks to support a drug habit. The employee             IRS Employee Sentenced for
utilized IRS’ computer system to determine               Conspiracy, Tax Evasion, and
when the refund checks were scheduled to be              Accepting Gratuities
issued. A non-employee co-conspirator
assisted the employee by stealing the checks             In September 2000, an IRS employee was
from mailboxes. The employee resigned from               sentenced in federal court to two years
the IRS while under investigation. During an             probation for conspiring to defraud the U.S.,
interview by TIGTA special agents, the                   using the employee’s position to defeat the
employee admitted to cashing the stolen                  tax laws, and accepting gratuities while acting
checks. The employee later cooperated with               as a public official. The IRS employee
TIGTA and provided information regarding                 unlawfully provided a co-conspirator with the
drug use by other IRS employees. This                    IRS Employer Identification Numbers (EIN)
information led to the arrest and prosecution            that were later used by others to hide income
of an IRS employee on local drug charges.                and evade taxes. The employee illegally
                                                         issued approximately 35 EINs to various
                                                         entities. The employee received health


                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                    34
                              Semiannual Report to the Congress



counseling and holistic medicines in exchange          others involved in the murder. TIGTA special
for the EINs. The employee resigned and                agents coordinated with the Georgia Bureau
cooperated with TIGTA special agents in                of Investigation (GBI) to include unidentified
providing information that led to the                  latent prints from the murder scene in its own
conviction of the co-conspirator. In                   AFIS. In 1994, GBI identified an additional
August 2000, the co-conspirator was                    suspect’s latent print left at the crime scene.
sentenced to three years and seven months in           TIGTA agents re-interviewed the subject
prison, ordered to pay a $100,000 fine, and a          convicted in 1987, who for the first time
$1,950 special assessment.                             admitted involvement in the incident. The
                                                       convict confirmed the identity of the second
                                                       conspirator, unaware that the second
  Threat, Assault, and Harassment
                                                       fingerprint had been identified by GBI.
           Investigations
                                                       Individual Sentenced to Imprisonment
IRS employees face a difficult and
                                                       After Threatening to Kill IRS
challenging mission in serving taxpayers.
                                                       Employees
While incidents and threats of violence and
harassment are extremely rare, when                    In August 2000, an individual was sentenced
compared to the millions of taxpayer contacts          to 24 months imprisonment and three years
made yearly by IRS employees, sometimes                supervised release for using interstate
individuals do resort to violent acts. The             communications to threaten to injure IRS
Office of Investigations considers responding          employees. The individual telephoned an IRS
to and investigating threats and assaults              office on three occasions regarding the
against IRS employees as one of its highest            individual’s income tax liability, each time
priorities. This Office also investigates              becoming verbally irate. During two of the
incidents of harassment by individuals who             telephone calls, the taxpayer threatened to kill
attempt to undermine IRS employees as they             IRS employees and told one employee, “I feel
carry out their duties. During this six-month          like going back up there [to the federal
period, the Office of Investigations completed         building] with an automatic shotgun and
372 threat, assault or harassment                      blowing their heads off.” All three calls were
investigations. In addition, this Office               tape recorded. When interviewed by TIGTA
investigated alleged misconduct by IRS                 special agents, the individual admitted to
employees involving sexual battery and                 making the threatening statements and was
inappropriate behavior.                                arrested.

Individual Sentenced in Murder of IRS                  IRS Employee Convicted of Sexual
Special Agent                                          Battery
The final conspirator in the murder of an IRS          In April 2000, an IRS employee was found
CI special agent was sentenced to life                 guilty of sexual battery charges and was
imprisonment in August 2000, closing an                sentenced to 12 months supervised probation,
investigation that was initiated in 1985. The          and was required to register as a sex offender.
first subject was arrested and tried in 1987           The employee was subsequently removed
after the subject was identified through use of        from the IRS. A TIGTA investigation was
the Federal Bureau of Investigation’s (FBI)            initiated after an IRS employee reported
Automated Fingerprint Identification System            sexual harassment by a co-worker. The
(AFIS). When that subject was convicted,               investigation revealed that the employee was
investigative efforts continued to identify            being harassed and had actually been sexually

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                  35
                               Semiannual Report to the Congress



assaulted by the co-worker. The victim had              Individual Arrested for Threatening to
originally been reluctant to report the assault.        Blow-Up the IRS
                                                        During March 2000, an individual telephoned
Individual Arrested After Threatening
                                                        an IRS employee threatening to blow up the
to Kill IRS Official
                                                        IRS and “hurt people.” TIGTA, with the
In June 2000, the Office of the Commissioner            assistance of local police, arrested the
of the Internal Revenue received a telephone            individual and charged the individual with
call from an individual whose spouse was an             threatening to obstruct or impede the due
IRS employee. The individual was upset                  administration of Internal Revenue laws. The
because the individual’s spouse had not been            individual made the threat because the IRS
selected for promotion. It was stated that the          employee refused to disclose confidential tax
individual would do whatever it took, even if           information concerning a third party. In
that meant getting a gun and blowing the                August 2000, the individual pled guilty and
director’s head off. The individual then                was sentenced to two years probation with the
terminated the call and a protection detail was         condition that the individual not contact any
immediately established for the director. In            IRS employees.
July 2000, the individual admitted to making
the call to the Commissioner’s Office to                Individual Convicted of Making Death
discuss the spouse’s lack of promotion. In              Threats
July 2000, a criminal complaint was issued
                                                        In January 2000, an individual mailed a
charging the individual with a violation of
                                                        threatening letter to an IRS employee. The
making threatening statements. TIGTA
                                                        letter contained a coded threat that the
special agents subsequently arrested the
                                                        individual indicated would appear in an
individual.
                                                        advertisement in a local newspaper if the IRS’
                                                        collection activity continued. When
Individual Charged With Telephone
                                                        interviewed by TIGTA special agents, the
Threat
                                                        individual deciphered the message as a code
In March 2000, an individual telephoned an              to murder the IRS employee. The message
employee threatening to confront IRS                    was allegedly a signal to two individuals
employees with a M-16 rifle and threatened              residing in a neighboring state to kill the IRS
the safety of any employees coming to the               employee. The individual acknowledged that
individual’s home to collect taxes. TIGTA               the intent was to place the message in the
was able to secure a tape recording of the call,        newspaper to harm the IRS employee and the
and telephone records showed the call                   employee’s immediate family; however, the
originated from the individual’s business.              individual never placed the advertisement.
The TIGTA investigation disclosed that the
                                                        In March 2000, a federal grand jury indicted
individual had, since December 1999,
                                                        the individual on one count of mailing
purchased three rifles and a pistol, and had
                                                        threatening communications and one count of
recently engaged in forcible confrontations
                                                        attempted interference with Internal Revenue
with local residents, the individual’s spouse,
                                                        laws. In May 2000, the individual pled guilty
and local police. TIGTA special agents, with
                                                        to the two counts and was sentenced to five
the assistance of the local police, arrested the
                                                        years probation. The individual was ordered
individual. In April 2000, the individual was
                                                        to participate in psychological evaluations,
indicted for interfering with Internal Revenue
                                                        anger management, and ordered not to
laws by threats of force. In June 2000, the
                                                        possess firearms.
individual pled guilty to the charges.

                     Treasury Inspector General for Tax Administration
                                   September 30, 2000

                                                   36
                             Semiannual Report to the Congress



Contract Employee Convicted of                         Employee Disciplined for Off-Duty
Carrying Firearm                                       Misconduct
In May 2000, TIGTA special agents arrested a           In June 2000, an IRS employee was
contract employee for carrying a loaded                suspended for conduct prejudicial to the
semi-automatic firearm into a federal building         government. A hotel employee indicated the
occupied by IRS employees. The individual              IRS employee made multiple comments of a
was employed with an engineering company               sexual nature while intimately touching the
contracted to provide services to the IRS.             hotel employee. The incident was referred to
TIGTA was advised that the individual was              the IRS Equal Employment Opportunity
carrying the firearm with the intention of             Office, and was subsequently reported to
shooting a manager who was also employed               TIGTA. TIGTA conducted the investigation
by the contractor. In July 2000, the individual        that revealed inappropriate conduct at a hotel
was found guilty of carrying a firearm in a            during a temporary assignment. During an
federal building.                                      interview with TIGTA, the employee
                                                       admitted to being too persistent in attempting
                                                       to initiate a sexual liaison with the hotel
                                                       employee. The employee also advised that a
                                                       misleading statement was provided to the IRS
                                                       Equal Employment Opportunity Office
                                                       because of concerns about the employee’s job.




                    Treasury Inspector General for Tax Administration
                                  September 30, 2000

                                                  37
                                      Semiannual Report to the Congress


                                                                                                    Appendix I
                                                                     Statistical Reports for the Office of Audit

                                  Audit Reports With Questioned Costs

Two audit reports with questioned costs were issued during this semiannual reporting period.
The term “questioned cost” means a cost that is questioned because of: (1) an alleged violation of
a provision of a law, regulation, contract, or other requirement governing the expenditure of
funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate
documentation (“unsupported cost”); or (3) a finding that expenditure of funds for the intended
purpose is unnecessary or unreasonable. The term “disallowed cost” means a questioned cost that
management, in a management decision, has sustained or agreed should not be charged to the
government.


            Reports With Questioned Costs
                  (4/1/00-9/30/00)                       Number          Questioned Costs2     Unsupported Costs
                                                           of             (In Thousands)        (In Thousands)
Report Category                                          Reports1
1.      For which no management decision had
        been made by the beginning of the                    1                       $5,508                        0
        reporting period.

2.      Which were issued during the reporting               2                        $116                         0
        period.
3.      Subtotals (Item 1 plus Item 2)                       3                       $5,624                        0
4.      For which a management decision was
        made during the reporting period.                    3                       $5,624                        0
        -     Dollar value of disallowed costs               3                       $5,624                        0
        -     Dollar value of costs not disallowed           0                            0                        0


5.      For which no management decision had
        been made by the end of the reporting                0                           0                         0
        period. (Item 3 minus Item 4)


6.      For which no management decision was
        made within six months of report                     0                           0                         0
        issuance.

1
     See Appendix IV for identification of audit reports involved.
2
     “Questioned Costs” include “Unsupported Costs.”




                           Treasury Inspector General for Tax Administration
                                         September 30, 2000
                                                                 39
                                      Semiannual Report to the Congress


                                                                                                  Appendix I
                                                                   Statistical Reports for the Office of Audit

  Audit Reports With Recommendations That Funds Be Put To Better Use

Six audit reports with recommendations that funds be put to better use were issued during this
semiannual reporting period.
The term “recommendation that funds be put to better use” means a recommendation that funds
could be used more efficiently if management took actions to implement and complete the
recommendation, including: (1) reductions in outlays; (2) deobligations of funds from programs
or operations; (3) costs not incurred by implementing recommended improvements related to
operations; (4) avoidance of unnecessary expenditures noted in pre-award reviews of contract or
grant agreements; or (5) any other savings which are specifically identified. The term
“management decision” means the evaluation by management of the findings and
recommendations included in an audit report and the issuance of a final decision concerning its
response to such findings and recommendations, including actions concluded to be necessary.

      Reports With Recommendations That Funds Be Put to Better Use
                                  (4/1/00-9/30/00)                              Number           Amount
                                                                                  of         (In Thousands)
  Report Category                                                               Reports1
  1.      For which no management decision had been made by the beginning           1                 $3,300
          of the reporting period.
  2.      Which were issued during the reporting period.                            6                $39,856

  3.      Subtotals (Item 1 plus Item 2)                                            7                $43,156
  4.      For which a management decision was made during the reporting
          period.                                                                   5                $33,970
          Dollar value of recommendations that were agreed to by
          management                                                                4                $30,670
          -    Based on proposed management action                                  4                $30,670
          -    Based on proposed legislative action                                 0                      0

          Dollar value of recommendations that were not agreed to by
          management                                                                1                 $3,300

  5.      For which no management decision had been made by the end of the
          reporting period. (Item 3 minus Item 4)                                   2                 $9,186

  6.      For which no management decision was made within six months of
          issuance.                                                                 0                         0


  1
       See Appendix IV for identification of audit reports involved.




                          Treasury Inspector General for Tax Administration
                                        September 30, 2000
                                                                40
                            Semiannual Report to the Congress


                                                                                  Appendix I
                                                   Statistical Reports for the Office of Audit

 Audit Reports With Additional Quantifiable Impact on Tax Administration

In addition to questioned costs and funds put to better use, the Office of Audit has identified other
measures that demonstrate the value of audit recommendations on tax administration and IRS
business operations. These issues are of interest to IRS and Treasury executives, the Congress,
and the taxpaying public, and are expressed in quantifiable terms to provide further insights to the
value and potential impact of the Office of Audit’s products and services. Including this
information also advances the intent and spirit of GPRA.
Definitions of these additional measures are:
1. Taxpayer Rights and Entitlements at Risk: The protection of due process
   (rights) that is granted to taxpayers by law, regulation, or IRS policies and
   procedures. These rights most commonly arise in the performance of filing tax
   returns, paying delinquent taxes, and examining the accuracy of tax liabilities.
   The acceptance of claims for and issuance of refunds (entitlements) are also
   included in this category, relating to instances when taxpayers have a legitimate
   assertion to overpayments of tax.
2. Reduction of Burden on Taxpayers: The decreased need for, frequency of, or
   time spent on, contacts, record keeping, preparation, or costs to comply with tax
   laws, regulations, and IRS policies and procedures by individuals or businesses.
3. Increased Revenue or Revenue Protected: Assessment or collection of
   additional taxes (increased revenue), or proper denial of claims for refund,
   including recommendations that prevent erroneous refunds or efforts to defraud
   the tax system (revenue protection).
4. Taxpayer Privacy and Security: Protection of taxpayer financial and account
   information (privacy). Processes and programs that provide protection of tax
   administration, account information and organizational assets (security).
5. Protection of Resources: Safeguarding human and capital assets, used by or in
   the custody of the organization, from inadvertent or malicious injury, theft,
   destruction, loss, misuse, overpayment, or degradation. This measure will often
   be expressed as a value of the entity or program affected by the issue(s)
   described in the audit report.
6. Reliability of Management Information: Ensuring the accuracy, validity,
   relevance, and integrity of data (including the sources, applications and
   processing of data) used by the organization to plan, monitor and report on its
   financial and operational activities. This measure will often be expressed as an
   absolute value (i.e., without regard to whether a number is positive or negative)
   of overstatements or understatements of amounts recorded on the organization’s
   documents or systems.




                   Treasury Inspector General for Tax Administration
                                 September 30, 2000
                                                 41
                                     Semiannual Report to the Congress


                                                                                                 Appendix I
                                                                  Statistical Reports for the Office of Audit

     Audit Reports With Additional Quantifiable Impact on Tax Administration

The number of taxpayer accounts, hours, and dollar values shown in this chart were derived from
analyses of historical data, and are thus considered potential barometers of the impact of audit
recommendations. Actual results will vary depending on the timing and extent of management’s
implementation of the corresponding corrective actions, and the number of accounts or
subsequent business activities applicable from the dates of implementation. Also, a report may
have issues that impact more than one outcome measure category.


    Reports With Additional Quantifiable          Number
       Impact on Tax Administration                 of              Number of       Number
              (4/1/00-9/30/00)                    Reports           Taxpayer          of           Dollar Value         Other5
                                                    in              Accounts         Hours       (In Thousands)
Outcome Measure Category
                                                 Category1

1.      Taxpayer Rights and Entitlements at          13               3,534,210                       $ 488,9003                 6

        Risk
2.      Reduction of Burden on Taxpayers              7                 32,8582                                                  7



3.      Increased Revenue or Revenue                  7                116,310                        $ 399,5284
        Protected
4.      Taxpayer Privacy and Security                 0


5.      Protection of Resources                       0

                                                                                                        $ 12,426                 8
6.      Reliability of Management                     4                         5
        Information

Explanatory Notes
1
     See Appendix IV for identification of audit reports involved.
2
     One report (2000-40-087), consisted of two recommendations that impacted 12,224 taxpayer accounts. However, 28
     accounts may be duplicated between the two recommendations.
3
     For one report (2000-30-115) IRS management agreed that the $11.6 million that would have been overpaid had the
     procedures not been corrected appeared to be based upon valid assumptions, but the amount could not be absolutely
     confirmed. For another report (2000-30-088), IRS management did not concur with $16.7 million of the $25 million that
     was estimated as needing to be credited to taxpayers' accounts.
4
     For three reports (2000-30-121, 2000-30-127, 2000-30-151), IRS management did not concur with TIGTA's
     quantification of revenue projections totaling $124,239,000.
5
     Some reports contained "Other" quantifiable impacts besides the number of taxpayer accounts, number of hours, and
     dollar value. These outcome measures are described in the footnotes below.
6
     Other measures of taxpayer rights and entitlements consist of 124 certified mail notices to taxpayers not controlled; and
     3,251 FOIA, PA, and I.R.C. Section 6103 requests that were improperly withheld or not timely provided.
7
     Other measures of burden reduction consist of: 18,357 notices incorrectly sent to taxpayers and $3.192 million in
     penalties incorrectly charged to taxpayers; and, 818,000 taxpayer contacts for small dollar failure to deposit penalties.
8
     Other reliability of management information measures consist of 1,208 unmailed levies (computer information was not
     updated to show the levies were cancelled) and 134 Internal Revenue Manual Sections and 15 IRS publications with
     prohibited references to Illegal Tax Protester (ITP) designations.




                           Treasury Inspector General for Tax Administration
                                         September 30, 2000
                                                               42
                                 Semiannual Report to the Congress


                                                                                         Appendix II
                                                 Statistical Reports for the Office of Investigations


                                        Investigative Results
                                  April 1, 2000 – September 30, 2000



                                   Investigations Opened and Closed


Total Investigations Opened                                                                     2020


Total Investigations Closed                                                                     2025




                                       Financial Accomplishments


Embezzlement/Theft Funds Recovered                                                          $531,637


Court Ordered Fines, Penalties and Restitution                                             $3,548,370



Out-of-Court Settlements                                                                          $0




                       Treasury Inspector General for Tax Administration
                                     September 30, 2000
                                                       43
                                    Semiannual Report to the Congress


                                                                                            Appendix II
                                                    Statistical Reports for the Office of Investigations


                                  Status of Closed Criminal Investigations


                                                          Employee             Non-Employee                TOTAL1



Referred – Accepted for Prosecution                           29                     139                      168

Referred – Declined for Prosecution                          255                     313                      568

No Referral2                                                 569                     533                     1102

Referred - Pending Prosecution Decision                       38                      75                      113




                                               Criminal Dispositions3


                                                          Employee            Non-Employee                TOTAL1


Guilty                                                        22                     98                      120

Nolo-Contendere                                                1                     1                        2

Pre-trial Diversion                                            3                     6                        9

Deferred Prosecution4                                          0                     2                        2

Not Guilty                                                     0                     0                        0

Dismissed                                                      3                     6                        9

1
    The statistics include both federal and state dispositions.
2
     Includes investigations in which the allegation was disproved and/or insufficient evidence was obtained.
3
    Due to the time involved in criminal adjudication, there is most often no correlation between the data reflected as
    “Referred-Accepted for Prosecution” in the Status of Closed Criminal Investigations chart and the data in the Criminal
    Dispositions chart.
4
    A deferred prosecution occurs when a person pleads guilty before going to trial.




                         Treasury Inspector General for Tax Administration
                                       September 30, 2000
                                                             44
                                   Semiannual Report to the Congress


                                                                                           Appendix II
                                                   Statistical Reports for the Office of Investigations



         Administrative Status and Dispositions on Closed TIGTA Investigations1


Removed, Terminated or Other                                                                               155

Suspended/Reduction in Grade                                                                                61

Oral or Written Reprimand/Admonishment                                                                     120

Closed – No Action Taken                                                                                   265

Clearance Letter Issued                                                                                    148

TOTAL DISPOSITIONS                                                                                         749



Employee Resigned Prior to Adjudication                                                                     72

1
    Cases which were referred and/or cases on which action was taken by the IRS during this reporting period.
    Additionally, TIGTA referred 772 cases during this 6-month period that remain pending administrative adjudication.




                         Treasury Inspector General for Tax Administration
                                       September 30, 2000
                                                            45
                                Semiannual Report to the Congress


                                                                                        Appendix II
                                                Statistical Reports for the Office of Investigations


The following tables summarize the number of complaints received by TIGTA and various
components within the IRS and the status and dispositions of the complaints.


                        Complaints/Allegations Received by TIGTA


               Number of Complaints/Allegations Received by TIGTA                       4,763

                        Complaints Against IRS Employees                                1,977

                        Complaints Against Non-Employees                                2,786




                Status of Complaints/Allegations Received by TIGTA


               Status of Complaints

                        Warranted Further Investigation                                 2,053

                        In Process Within TIGTA                                          307

                        Referred to the IRS for Action                                   471

                        Referred to the IRS for Information Only                        1,030

                        Returned to IRS                                                  78

                        Referred to a Non-IRS Entity1                                    25


                        Closed With No Referral                                          799

               TOTAL COMPLAINTS                                                         4,763


           1
               A non-IRS entity includes other law enforcement entities or federal agencies.




                     Treasury Inspector General for Tax Administration
                                   September 30, 2000
                                                          46
                                  Semiannual Report to the Congress


                                                                                          Appendix II
                                                  Statistical Reports for the Office of Investigations


                         Complaints/Allegations Received by the IRS

                                                                                                      Number of
                                                                                                      Complaints1

          Customer Feedback System (CFS)2                                                                  701

          Taxpayer Advocate Management Information System (TAMIS)3                                       156,407

          EEO Informal Complaints                                                                          619

          EEO Formal Complaints4                                                                           323

          Other Employee Misconduct5                                                                       304

1
  Number of complaints is not totaled because of the potential for duplication between systems.
2
  This system contains data on allegations of employee misconduct as mandated by the Taxpayer Bill of Rights 2. The
   CFS does not contain data on allegations meeting Section 1203 criteria that have been referred to TIGTA for
   investigation.
3
  Formerly the Problem Resolution Program (PRP),TAMIS does not distinguish between a complaint (against a system,
  process, policy or employee), a problem (with a tax account) or an inquiry. These distinctions are considered
  interpretive of the state of mind of the individual presenting the issue and, as such, impractical.
4
  Formal EEO complaints are unresolved pre-complaints (i.e., complaints that are not settled, withdrawn or otherwise
   dropped) that are filed by complainants with one of the four Department of Treasury Regional Complaint Centers.
5
  This is the total number of employee misconduct allegations, including Section 1203 allegations, received by the IRS
   from any source (i.e., employee, former employee, taxpayer, representative, TIGTA or any other source). This does
   not represent the number of employees - just the number of allegations - one employee may have multiple allegations
   against him or her. The system does not distinguish frivolous from serious allegations. Previous reports consisted only
   of complaints from taxpayers.




                       Treasury Inspector General for Tax Administration
                                     September 30, 2000
                                                           47
                               Semiannual Report to the Congress


                                                                                          Appendix III
                                                                            Statistical Reports – Other

                 Audit Reports With Unimplemented Corrective Actions

The Inspector General Act of 1978 requires identification of significant recommendations
described in previous semiannual reports on which corrective actions have not been completed.
The following list is based on information from the IRS Office of Management Control’s
automated tracking system maintained by Treasury management officials.

 (F = Finding Number, R = Recommendation Number, P = Plan Number)

  Reference
   Number          Issued        Report Title and Recommendation Summary

   041403       January 1994     Review of the Nonresident Alien Information Documents
                                 F-1, R-2, P-1. Management should ensure that obvious noncompliance with
                                 applicable tax laws and regulations be identified during processing.

   061610       January 1996     IRS’ Efforts in Monitoring Trust Fund Recovery Penalty Assessments Need
                                 Improvement
                                 F-2, R-3, P-1. IRS should automate the processing of adjustments resulting
                                 from payments or credits on related Trust Fund Recovery accounts, as part of
                                 the IRS’ modernization efforts.

   060402       January 1996     Review of the Early Intervention Contact Processing
                                 F-2, R-1, P-2. Early Intervention should consider alternate methods to obtain
                                 the most current taxpayer locator information.

   064008        June 1996       The Financial Accounting and Reporting of Collection's Seized Assets Could
                                 Be Improved
                                 F-2, R-1, P-4. Management should incorporate a systemic interface between
                                 the Automated Work Control System seizure module and the general ledger as
                                 part of the Revenue Accounting Control System replacement.

   065002         July 1996      Review of the Validity of Assessments
                                 F-1, R-3, P-1. The Service should continue pursuing the capability to access
                                 Social Security Administration data via computer to enable quick, economical
                                 processing of Combined Annual Wage Reporting and Social Security
                                 Administration penalty cases.

   065503       August 1996      Review of the Employment Tax Nonfiler Program
                                 F-2, R-1, P-1. When Form W-3 information is received from the Social
                                 Security Administration, match the Employer Identification Number and name
                                 control to those on the Business Masterfile.
                                 F-2, R-3, P-1. Establish a Form W-2/Business Masterfile cross-check of
                                 Employer Identification Numbers that appear on Forms W-2 attached to
                                 electronically filed Forms 1040. Establish employment tax filing requirements
                                 for those Employer Identification Numbers that match an existing Business
                                 Masterfile account if the account does not have a filing requirement and does
                                 not contain a subsidiary indicator.




                   Treasury Inspector General for Tax Administration
                                 September 30, 2000
                                                     49
                            Semiannual Report to the Congress


                                                                                         Appendix III
                                                                           Statistical Reports – Other

             Audit Reports With Unimplemented Corrective Actions

Reference
 Number         Issued        Report Title and Recommendation Summary

 066401     September 1996    Follow-up Review of Information Security Over Small Scale Computer Systems
                              F-1, R-1, P-24. Require Regional Commissioners to conduct another
                              self-assessment and certification of systems, to be followed by a validation.

 071404     February 1997     Productivity of the Underreporter Program
                              F-1, R-1, P-1. A Gross Assessment Method should be used to calculate the
                              Underreporter Program productivity.
                              F-2, R-1, P-1. A Gross Assessment Method should be used to calculate yield
                              to cost ratios, determine productivity rankings, and select inventory for the
                              Underreporter Program.
                              F-3, R-1, P-1. Actual site costs should be used when calculating productivity
                              to increase the accuracy of productivity rankings and obtain a more precise
                              measurement of efficiency.

 071304      March 1997       Quality of Information Document Processing
                              F-1, R-1, P-3, P-4. Review IRS reports (Martinsburg Computing Center
                              Report 405-02-12) to determine whether large variances exist between
                              processing years in the volume and dollars of information documents.

 072208       April 1997      Review of Service Efforts to Ensure Compliance of Taxpayers Receiving
                              Foreign-Sourced Income
                              F-2, R-1, P-1. The Service should commit to the development of a system to
                              process foreign information records received magnetically in the standard
                              Organization for Economic Cooperation and Development format.

 072303       April 1997      A Review of Cyberfile
                              F-1, R-2, P-1. To reduce the chance of a recurrence of the types of problems
                              that impacted Cyberfile’s development, management should ensure that IRS
                              guidelines are strengthened to specify project management procedures
                              regarding tracking funds paid to vendors for services and vendor
                              purchases/leases of IRS-funded equipment.

 073804       July 1997       Review of the Inventory Delivery System Development
                              F-2, R-4, P-1. The Service should review and update the sampling plan to
                              ensure it includes criteria for the evaluation of each sampled account within a
                              sub-group to ensure consistency.
                              F-2, R-6, P-1. The results of the Self-Monitoring Program should be included
                              as one of the factors for determining whether and when Inventory Delivery
                              System features should be scheduled for national implementation.

 075404     September 1997    Review of the Office of Disclosure
                              F-3, R-3, P-2. The Office of Disclosure should take appropriate measures to
                              ensure sensitive data maintained on the inventory control system is properly
                              protected. The system should meet C-2 requirements and provide an adequate
                              audit trail to monitor user activity on the database.




                Treasury Inspector General for Tax Administration
                              September 30, 2000
                                                   50
                           Semiannual Report to the Congress


                                                                                        Appendix III
                                                                          Statistical Reports – Other

             Audit Reports With Unimplemented Corrective Actions

Reference
 Number        Issued        Report Title and Recommendation Summary

 080303     November 1997    Implementation of the Taxpayer Bill of Rights 2
                             F-1, R-1, P-1. Alternative methods of obtaining feedback from taxpayers about
                             how they were treated should be considered, rather than relying solely on
                             employees and managers for input.
                             F-1, R-2, P-1, P-2. Form 10004, Customer Feedback Record, should be
                             redesigned to capture more specific information that can be used for analysis to
                             identify trends for corrective action.

 081004     December 1997    Taxpayer Walk-In Program for the 1997 Filing Season
                             F-2, R-1, P-2. Develop a customer-based strategy and a related program with
                             applicable goals and measures to evaluate performance of the Walk-In
                             Program.

 083008       April 1998     Review of the Service’s Electronic Federal Tax Payment System
                             Implementation and Enhancements
                             F-4, R-2, P-1. IRS management should provide a process for electronic
                             submission of authorization data to eliminate manual transcription.
                             F-4, R-5, P-1. For the long-term, management should use the authority given
                             by the Taxpayer Bill of Rights 2 for alternative forms of authorizations to
                             re-engineer the enrollment and authorization processes in the Electronic
                             Federal Tax Payment System and substantially reduce, and perhaps eliminate,
                             paper enrollments and authorizations.

 083322       May 1998       Math Error Processing for Revenue Protection Issues
                             F-3, R-1, P-2. Send notices to taxpayers who used invalid Taxpayer
                             Identification Numbers on their previous returns for themselves and their
                             spouses.
                             F-10, R-1, P-1. Include an informal checklist in the Revenue Protection
                             Strategy math error notices listing the information taxpayers should provide
                             when writing or calling the IRS.

 084407       July 1998      Use of Seizure Authority in the Collection Field Function
                             F-7, R-1, P-2. Develop a comprehensive certification/review checksheet that
                             can be used by appropriate levels of management to attest that all legal and
                             procedural requirements have been met.

 084803       July 1998      Review of the Integration Support Contract
                             F-1, R-1, P-2. Procurement and Information Systems should ensure that
                             in-depth analysis of contractor labor hours and costs is performed prior to
                             payment of the invoices.
                             F-3, R-1, P-1. Information Systems should monitor the Government Furnished
                             Equipment/Government Furnished Information by establishing a database to
                             capture all the equipment and information provided to the vendor under the life
                             of the contract.




                Treasury Inspector General for Tax Administration
                              September 30, 2000
                                                 51
                            Semiannual Report to the Congress


                                                                                         Appendix III
                                                                           Statistical Reports – Other

             Audit Reports With Unimplemented Corrective Actions

Reference
 Number         Issued        Report Title and Recommendation Summary

 085812     September 1998    Readiness for Service Center Mainframe Consolidation
                              F-2, R-1, P-1. Unless assurances can be made that experienced IRS personnel
                              can be relocated when and where needed, IRS management should develop a
                              contingency plan to provide the needed staffing for critical positions at all
                              affected sites.
                              F-5, R-1, P-1. Management should ensure security and disaster recovery risks
                              are mitigated through a proactive approach of determining the final disaster
                              recovery strategy and funding security certification and accreditation activities.
                              F-10, R-1, P-1. The Project Management Office should ensure vendor site
                              surveys are completed and issued within the 15-day requirement per the
                              Service Center Support System Contract, and reviewed by Information
                              Systems personnel for accuracy and completeness.
                              F-11, R-1, P-4. The Project Management Office should provide additional
                              resources to adequately define and validate the delivery order requirements and
                              to coordinate with Procurement until all requirements are definitized for price
                              negotiations.

 091903     December 1998     Executive Compilation and Interpretation of the 1998 Filing Season
                              F-2, R-1, P-1. To simplify return filing, the IRS should improve the process
                              used to evaluate the burden placed upon taxpayers by the various tax laws and
                              publications.

 091804      January 1999     IRS Employee Outside Employment Requests
                              F-1, R-1, P-2. Update and clarify national guidelines on the processing,
                              approval, and annual review of applications for outside employment. Clearly
                              define the role and authority of both management and Labor Relations.

 093602       April 1999      The Internal Revenue Service Needs To Improve Treatment of Taxpayers
                              During Office Audits
                              F-1, R-3, P-2. Require a separation of duties among auditors who identify
                              Midwest Automated Compliance System returns with potential tax changes,
                              auditors who select Midwest Automated Compliance System returns to be
                              audited, and auditors who conduct the examinations.
                              F-1, R-4, P-2. Ensure that all Midwest Automated Compliance System data
                              discs forwarded from the Midwest Automated Compliance System
                              Development Center to district offices are properly accounted for and secured.
                              F-2, R-3, P-2. Ensure examiners, including managers, are better informed and
                              educated about IRS procedures that are designed to ensure taxpayers are
                              treated properly during audits.
                              F-2, R-4, P-1. Clarify the Internal Revenue Manual to provide specific
                              guidance for conducting correspondence audits in district office settings.




                Treasury Inspector General for Tax Administration
                              September 30, 2000
                                                   52
                        Semiannual Report to the Congress


                                                                                     Appendix III
                                                                       Statistical Reports – Other

            Audit Reports With Unimplemented Corrective Actions

Reference
 Number      Issued       Report Title and Recommendation Summary

 094206     May 1999      The Examination Returns Control and Integrated Data Retrieval Systems Can
                          Be Improved to Protect Taxpayer Rights During the Audit Process
                          F-3, R-1, P-1, P-2. The Assistant Commissioner (Examination), with input
                          from the Chief Information Officer, should ensure the following issues are
                          addressed to enable the Examination Returns Control System audit trail to be
                          used to its fullest extent.
                          F-4, R-1, P-4. The Assistant Commissioner (Examination), with input from the
                          Chief Information Officer, should develop and submit a Request for
                          Information Services to eliminate acting managers from having the ability to
                          approve any changes to their inventory.

 093009     June 1999     Review of the Electronic Fraud Detection System
                          F-1, R-2, P-2. Initial and periodic password changes should be systemically
                          enforced for the Electronic Fraud Detection System (EFDS) application
                          program.
                          F-1, R-3, P-2. Workstation terminals should be disabled after a selected
                          number of failed login attempts to the EFDS application program.
                          F-1, R-4, P-2. Password change information should be part of the EFDS
                          application audit trail.
                          F-2, R-1, P-2. Program the EFDS application trail to record all accesses to
                          taxpayer data.
                          F-2, R-2, P-2. Design an audit trail application to record accesses to taxpayer
                          data through secondary sources such as the database administrator, system
                          query tools, or contract vendors.
                          F-3, R-1, P-2. The EFDS Project Office should work with EFDS developers to
                          ensure that the following programming changes are made. The EFDS
                          application audit reports should be changed to include a date range field and
                          service center site field where applicable.
                          F-3, R-4, P-2. The Chief Information Officer should complete this assessment,
                          taking into consideration the audit trail issues referred to in this Memorandum
                          of Understanding to improve the usefulness of the EFDS application audit trail.
                          F-3, R-5, P-2. Because of the sensitivity of the data maintained on the EFDS,
                          and the number of people who have access to the system (with more planned in
                          the future), the audit trail problems referred to in the report should be included
                          by the IRS as a Federal Managers’ Financial Integrity Act material weakness.
                          F-5, R-2, P-1. EFDS will soon undergo a new security certification. Taking
                          into account the audit trail and documentation issues discussed in this report, it
                          is questionable whether EFDS should have received its prior security
                          certification. In the upcoming certification process, Information Systems
                          should ensure that the issues discussed in this report are corrected, and that all
                          other controls necessary for a proper certification are in place and functioning.




              Treasury Inspector General for Tax Administration
                            September 30, 2000
                                               53
                           Semiannual Report to the Congress


                                                                                       Appendix III
                                                                         Statistical Reports – Other

             Audit Reports With Unimplemented Corrective Actions

Reference
 Number         Issued       Report Title and Recommendation Summary

199920063    August 1999     The General Controls Environment Over the Internal Revenue Service’s
                             Unisys 2200 Systems Can Be Improved
                             F-1, R-1, P-1. The Chief Information Officer should ensure that the ten files
                             with taxpayer information identified by TIGTA are immediately secured to
                             prevent system users from casually reviewing the taxpayer data contained in
                             the files without such access being reported to management.
                             F-2, R-1, P-1. The Chief Information Officer should standardize control
                             settings for files common to the Unisys 2200 production mainframes.
                             F-3, R-1, P-1. The Chief Information Officer should ensure all improperly
                             owned files are identified and assigned an owner present on the Unisys 2200
                             system at each service center, with the exception of files required to be
                             unowned, prior to movement of that service center’s mainframe to the
                             consolidated Unisys 4800 environment.
                             F-3, R-2, P-1, P-2, P-3, P-4, P-5, P-6. The Chief Information Officer should
                             institute a policy requiring that all files owned by users being removed from
                             the Unisys 2200 and Unisys 4800 systems either be deleted or assigned to a
                             user present on the system.
                             F-4, R-1, P-1. The Chief Information Officer should examine the possibility of
                             tracking individual user actions while using the MASTER user-id on the
                             Unisys 4800 system and, if possible, implement this feature as soon as feasible.
                             F-6, R-1, P-1. The Chief Information Officer should ensure that all required
                             C-2 documentation is prepared for the Unisys 4800.
                             F-6, R-2, P-1. The Chief Information Officer should develop and maintain a
                             security policy for the Unisys 4800.
                             F-6, R-3, P-1. The Chief Information Officer should conduct and document an
                             assessment of the risk factors for the Unisys 4800.

199910072   September 1999   The Internal Revenue Service Needs to Improve Compliance With Legal and
                             Internal Guidelines When Taking Taxpayers’ Property for Unpaid Taxes
                             F-2, R-1, P-1. Complete the seizure and post-seizure checklists that are being
                             developed and ensure that pertinent 26 U.S.C. § 6331 through § 6344
                             provisions and Internal Revenue Manual requirements are included.
                             F-2, R-2, P-1. Use memoranda, training sessions, group meetings, etc., to
                             emphasize that IRS employees should use the appropriate checklists for all
                             seizures conducted.
                             F-2, R-3, P-1, P-2, P-3, P-4. Ensure that Collection management and other
                             appropriate management officials verify that all applicable items on the
                             pre-seizure checklist are completed prior to approving the seizure and that all
                             applicable items on the seizure and post-seizure checklists under development
                             are completed.
                             F-2, R-4, P-2, P-3. Determine from a legal standpoint what steps should be
                             taken regarding any money received as a direct result of conducting seizures
                             without following the provisions in 26 U.S.C. § 6331 through § 6344.




                Treasury Inspector General for Tax Administration
                              September 30, 2000
                                                 54
                         Semiannual Report to the Congress


                                                                                       Appendix III
                                                                         Statistical Reports – Other

             Audit Reports With Unimplemented Corrective Actions

Reference
 Number         Issued       Report Title and Recommendation Summary

199920068   September 1999   The Service Center Mainframe Consolidation Project Has Made Significant
                             Progress, But Project Execution and Administration Risks Remain
                             F-1, R-1, P-1, P-3. Ensure all critical operational and technical aspects of
                             consolidation at computing centers and service centers (including Kansas City
                             Service Center) are: 1) standardized; 2) thoroughly tested; 3) documented
                             appropriately; and, 4) included in employee training.
                             F-2, R-2, P-1. IRS management should ensure that all delivery orders are
                             definitized by June 1999. The Procurement Division should validate the goods
                             and services ordered for pricing accuracy.
                             F-2, R-3, P-1. IRS management should ensure that proper procedures are
                             followed. The Service Center Mainframe Consolidation Project Office should
                             establish full-time Government Task Managers and support staff on-site to
                             monitor and verify deliveries, hours worked by the contractor, and travel taken
                             by the contractor.
                             F-3, R-1, P-1, P-2, P-3. The Chief Information Officer should ensure that all
                             consolidation costs, whether incurred at the Project Office or field levels, are
                             accurately budgeted, captured, and reported.

 093103     September 1999   Limitations of the Automated Non-Masterfile and the Impact on the Internal
                             Revenue Service
                             F-3, R-2, P-2. Using the existing computer listings of Non-Masterfile
                             Accounts Receivable and Transaction Code 130s generated the 39th week of
                             the year, conduct an annual match to identify accounts without a “freeze.”

199940057   September 1999   Controls Should Be Strengthened Over Business Taxpayer Accounts With
                             Frozen Million Dollar Refunds
                             F-1, R-1, P-1. Modify the “Million Dollar Refund Freeze” indicator program
                             in the IRS’ computer system to provide the option to release business taxpayer
                             account credit balances plus computed interest that total less than $1 million
                             (i.e., when the refund due drops below $1 million at any point in time).
                             F-4, R-1, P-1. Enhance current Internal Revenue Manual procedures to
                             identify and expedite the resolution of a “Million Dollar Refund Freeze.”




                Treasury Inspector General for Tax Administration
                              September 30, 2000
                                                 55
                              Semiannual Report to the Congress


                                                                                           Appendix III
                                                                             Statistical Reports – Other

               Audit Reports With Unimplemented Corrective Actions

Reference
 Number          Issued         Report Title and Recommendation Summary

2000-20-004   October 1999      The Internal Revenue Service Needs to Encourage Taxpayer Use, Improve
                                Customer Service, and Enhance Computer Controls of the 941 TeleFile
                                Program
                                F-1, R-1, P-1. The 1997 Evaluation Report identifies non-user responses
                                regarding the best way to market 941 TeleFile. Approximately 85 percent of
                                the businesses indicated the IRS should market 941 TeleFile using the 941
                                mailing packages that are sent to businesses on a quarterly basis.
                                F-1, R-2, P-1. The IRS needs to improve its marketing towards eligible
                                businesses to increase participation in the 941 TeleFile Program.
                                F-2, R-2, P-1. The IRS should provide additional wording to the CP-136
                                notice to advise taxpayers they are no longer eligible to use the 941 TeleFile
                                Program and to advise them of other electronic alternatives for filing their
                                returns, such as Electronic Filing.
                                F-3, R- 2, P-1. The IRS should require taxpayers to be in business for the
                                entire look-back period to be eligible to participate in the 941 TeleFile
                                Program.

2000-30-015   December 1999     Consolidated Report on Opportunities for the Internal Revenue Service to
                                Improve Service to Business Taxpayers
                                F-2, R-1, P-1. Expand the current Federal Tax Deposits alert reengineering
                                effort to re-evaluate the cost effectiveness of the Program.
                                F-3, R-1, P-1. Move toward centralized processing of business returns in two
                                locations.

2000-10-028   February 2000     Cost Savings Can Be Achieved Through Improved Monitoring of the Treasury
                                Communications System Contract
                                F-1, R-2, P-1, P-2. To facilitate the review process, Procurement and
                                Information Systems management should request that the Treasury
                                Communications System Program Management Office work with the
                                contractor to create an invoice that is easier to verify.
                                F-2, R-1, P-1. Information Systems management should work with the
                                contractor to determine realistic estimates on future service requests.

2000-10-033   February 2000     The Internal Revenue Service Can Further Reduce the Burden on Taxpayers
                                Who Disagree With Proposed Assessments
                                F-1, R-1, P-1. Send letters of proposed changes (30-Day Report) via certified
                                mail, with return receipt requested, when taxpayers do not respond to the initial
                                contact letter.
                                F-2, R-1, P-3. Ensure future management and quality reviews include
                                evaluating whether office audit groups are adhering to correspondence
                                procedures.




                  Treasury Inspector General for Tax Administration
                                September 30, 2000
                                                     56
                           Semiannual Report to the Congress


                                                                                       Appendix III
                                                                         Statistical Reports – Other

              Audit Reports With Unimplemented Corrective Actions

Reference
 Number         Issued       Report Title and Recommendation Summary

2000-10-044   March 2000     Improvements Are Needed in Planning for the Acquisition of Goods and
                             Services and in Managing Contract Closeouts

                             F-2, R-2, P-1. The Director, Procurement, should implement procedures for
                             periodic reviews to ensure contracts are properly closed out and excess funds
                             timely deobligated.

2000-10-047   March 2000     The Internal Revenue Service Needs to Strengthen Its Operating Controls for
                             the Tax-Exempt Bond Program
                             F-1, R-1, P-1. The IRS should ensure that Forms 8038-T, Arbitrage Rebate
                             and Penalty in Lieu of Arbitrage Rebate, are recorded on the Return Inventory
                             Classification System and that responsible personnel consistently monitor the
                             processing of tax-exempt bond returns to promptly address any concerns that
                             would inhibit the IRS from accomplishing its desired program objectives.
                             F-2, R-2, P-2, P-3. The IRS should develop instructions for the processing of
                             late filed tax-exempt bond returns.
                             F-3, R-1, P-2. The IRS should ensure that all incoming bond cases selected for
                             examination are entered on the Audit Information Management System before
                             revenue agents start their audits.




                Treasury Inspector General for Tax Administration
                              September 30, 2000
                                                 57
                           Semiannual Report to the Congress


                                                                                      Appendix III
                                                                        Statistical Reports – Other

              Audit Reports With Unimplemented Corrective Actions

Reference
 Number         Issued       Report Title and Recommendation Summary

2000-10-058   March 2000     The Internal Revenue Service Needs to Improve Its Compliance With
                             Procedures When Processing Requests for Information Under the Freedom of
                             Information Act
                             F-1, R-1, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             improve its case management practices and oversight to ensure compliance
                             with the provisions of the Freedom of Information Act (FOIA), the Privacy Act
                             (PA), and the IRS’ own guidelines and policy when reviewing FOIA and PA
                             requests that are denied.
                             F-2, R-1, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             establish controls to minimize extended periods of inactivity while processing
                             requests for information.
                             F-2, R-2, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             modify procedures to allow the transfer of PA cases to the office that has
                             jurisdiction over the requested records.
                             F-2, R-3, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             improve controls to ensure appropriate research is performed to determine
                             whether the requested records can be provided by the office receiving the
                             request or transferred to the office maintaining the records.
                             F-2, R-4, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             ensure that planned enhancements to the Disclosure Information Management
                             System include providing system users with instant access to nationwide
                             disclosure information.
                             F-3, R-1, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             consider expanding procedures to have disclosure employees provide
                             information from similar files or sources when the information is not available
                             in the exact format specified by the requester.
                             F-3, R-2, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             obtain controlled access to the IRS’ tax account information in the National
                             Office of Governmental Liaison and Disclosure to research the availability of
                             the requested records.
                             F-3, R-3, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             modify the disclosure organization structure to enable the National Office to
                             have more national direction and oversight over disclosure offices.
                             F-3, R-4, P-1. The IRS Office of Governmental Liaison and Disclosure should
                             develop and implement minimum standards for documenting case actions.

2000-10-061   March 2000     Letter Report: The Internal Revenue Service Should Improve Its Process to
                             Ensure the Fiscal Year 1999 Performance Report Will Contain the Information
                             Intended by the Congress
                             F-1, R-1, P-1. The IRS should ensure that any data limitations are properly
                             disclosed in the Annual Program Performance Report.
                             F-2, R-1, P-1. The Office of Strategic Planning and Budgeting should ensure
                             the development of a single set of authoritative instructions for timely
                             gathering and verifying data needed for Government Performance and Results
                             Act of 1993 reporting.




                Treasury Inspector General for Tax Administration
                              September 30, 2000
                                                 58
                           Semiannual Report to the Congress


                                                                                        Appendix III
                                                                          Statistical Reports – Other

              Audit Reports With Unimplemented Corrective Actions

Reference
 Number         Issued       Report Title and Recommendation Summary

2000-30-057   March 2000     Opportunities Exist for Further Reducing Erroneous Fuel Tax Credits
                             F-1, R-1, P-1. The IRS needs to emphasize the importance of checking prior
                             year returns for fuel tax credits, when closing current year fuel tax cases with
                             an adjustment, and to establish management controls to ensure that the
                             requirement is followed.
                             F-2, R-1, P-1, P-2, P-3. The Assistant Commissioner (Customer Service)
                             needs to provide professional preparer organizations with appropriate
                             educational materials on the tax regulations relating to tax credits for undyed
                             diesel fuel used by farmers.
                             F-2, R-2, P-1. The IRS should send information (i.e., educational) notices to
                             taxpayers who file returns claiming diesel fuel tax credits that are under the
                             minimum dollar amount for examination screening.

2000-30-059   March 2000     The Internal Revenue Service Can Improve the Estate Tax Collection Process
                             F-1, R-1, P-1, P-2. Collection and service center management should assign
                             the responsibility for determining whether a bond or tax lien should be secured
                             to the service center employees who process the installment agreements,
                             instead of to the district offices.
                             F-1, R-2, P-2. Service center management should review and approve all
                             requests for payment extensions. The review should ensure the estate has
                             demonstrated reasonable cause before granting the payment extension.
                             F-2, R-1, P-1. Collection management should instruct managers and
                             employees to conduct a 100 percent review of all current estate cases to ensure
                             active tax liens are input to the Automated Lien System (ALS), tax liens and
                             lien fees are properly reflected on the taxpayer accounts, and all tax liens are
                             released on accounts that have no tax obligation.
                             F-2, R-2, P-1. Collection and Information Systems management should
                             develop procedures to periodically reconcile tax liens on the ALS with
                             information shown on the taxpayer accounts.
                             F-2, R-3, P-1. Collection management should clarify procedures to employees
                             that all estate tax liens should be recorded on the ALS.
                             F-3, R-1, P-1. Collection and Information Systems management should
                             coordinate to review the collection statute abatement programming for accurate
                             Collection Statute Expiration Date (CSED) calculations.
                             F-3, R-2, P-1. Collection management should ensure tax is properly reinstated,
                             including recalculation of penalties and interest, for accounts abated
                             prematurely.
                             F-3, R-3, P-1, P-2. Collection and service center management should ensure
                             all estate tax accounts with collection statute abatements are manually
                             reviewed to verify or correct CSED calculations.
                             F-3, R-4, P-1, P-2. Collection and Information Systems management should
                             coordinate to develop a procedure to identify accounts with multiple
                             assessments and collection statute dates to ensure partial abatements occur
                             when the earliest CSED is reached.




                Treasury Inspector General for Tax Administration
                              September 30, 2000
                                                  59
                           Semiannual Report to the Congress


                                                                                        Appendix III
                                                                          Statistical Reports – Other

              Audit Reports With Unimplemented Corrective Actions

 Reference
  Number        Issued       Report Title and Recommendation Summary

2000-30-062   March 2000     Toll-Free Telephone Service Levels Declined in 1999 Despite Costly Efforts to
                             Achieve World Class Performance
                             F-1, R-2, P-1. To improve Customer Service operations, the IRS needs to
                             manage the toll-free business components as an integrated system.
                             F-1, R-4, P-1. Customer Service management needs to establish national
                             owners to manage the various interdependent systems (e.g., hiring, training,
                             labor relations, work planning, forecasting, and scheduling) that affect
                             telephone operations.
                             F-1, R-6, P-1. Customer Service national systems owners need to address the
                             serious shortage of trained Customer Service Representatives (CSRs) by
                             coordinating their actions to identify “best practices” at the call sites with
                             successful recruiting/hiring and intermediary skill training experiences and
                             share them with management at all sites.
                             F-1, R-7, P-1. Customer Service national systems owners need to address the
                             serious shortage of trained CSRs by coordinating their actions to reallocate
                             resources, resulting from attrition, from those sites with hiring difficulties to
                             other sites where qualified labor pools are more plentiful.
                             F-1, R-8, P-1. Customer Service national systems owners need to address the
                             serious shortage of trained CSRs by coordinating their actions to allocate
                             seasonal resources to those sites where qualified labor pools are more plentiful.
                             F-1, R-12, P-1. Customer Service national systems owners need to address the
                             serious shortage of trained CSRs by coordinating their actions to offer
                             incentives such as signing bonuses, subsidized transportation costs, and
                             extended-hour day care facilities.
                             F-1, R-14, P-1. Customer Service national systems owners need to address the
                             serious shortage of trained CSRs by coordinating their actions to explore
                             alternatives (e.g., out-sourcing to the private sector) for dealing with the
                             seasonal customer demands for answers to filing questions and tax law issues.
                             F-2, R-5, P-1. To increase the productivity and efficiency of the IRS’ toll-free
                             telephone operations, Customer Service management needs to renegotiate with
                             the National Treasury Employees Union to allow the use of “Idle with Reason
                             Codes” to determine employee abuses of lunches, breaks, etc.
                             F-3, R-1, P-1. To attain a reliable corporate measure of the quality of toll-free
                             telephone service provided to taxpayers, Customer Service management needs
                             to take actions to ensure that there is an adequately-sized centralized Quality
                             Review System staff in place to meet the requirements of the sampling plan or
                             find ways to increase the volume of calls monitored by each reviewer.
                             F-3, R-8, P-1. To further improve the ability of Spanish-speaking taxpayers to
                             use the IRS’ toll-free telephone system, Customer Service management needs
                             to develop a comprehensive strategy for recruiting and hiring more
                             Spanish-speaking CSRs.
                             F-3, R-10, P-1. To further improve the ability of Spanish-speaking taxpayers
                             to use the IRS’ toll-free telephone system, Customer Service management
                             needs to determine the feasibility of routing calls from Spanish-speaking
                             taxpayers to the Puerto Rico call site.




                Treasury Inspector General for Tax Administration
                              September 30, 2000
                                                  60
                           Semiannual Report to the Congress


                                                                                        Appendix III
                                                                          Statistical Reports – Other

              Audit Reports With Unimplemented Corrective Actions

Reference
 Number         Issued       Report Title and Recommendation Summary

2000-40-029   March 2000     The Internal Revenue Service Could Enhance the Process for Implementing
                             New Tax Legislation

                             F-1, R-1, P-1. The IRS should develop a process which ensures that actions
                             necessary to implement a legislative act are completed timely.

2000-40-045   March 2000     Taxpayers and the Internal Revenue Service Experienced Problems With Some
                             New Tax Provisions

                             F-2, R-1, P-1. The Chief Operations Officer should ensure that computer
                             programming necessary to identify taxpayer errors related to two tax law
                             provisions are completed by the 2001 filing season.
                             F-3, R-1, P-1. The Chief Operations Officer should ensure that reviews of
                             notices issued to taxpayers are effective in ensuring the notices are technically
                             accurate, clearly address the taxpayers’ errors, and clearly inform taxpayers
                             what steps they need to take.

2000-40-055   March 2000     The Internal Revenue Service Needs to Improve Its Coordinated Oversight of
                             the Substitute for Return Process
                             F-1, R-1, P-1. The Chief Operations Officer should establish uniform policies
                             and procedures to ensure coordination of IRS efforts among the functions
                             processing Substitute for Return (SFR) accounts.
                             F-2, R-1, P-1. The Chief Operations Officer should coordinate the
                             development of a process to monitor the future filing compliance of taxpayers
                             with SFR tax assessments regardless of which function processed the account.
                             F-2, R-2, P-1. The Chief Operations Officer should coordinate the design of a
                             process to profile SFR tax assessments and their resolution regardless of
                             processing function.




                Treasury Inspector General for Tax Administration
                              September 30, 2000
                                                  61
                            Semiannual Report to the Congress


                                                                                 Appendix III
                                                                   Statistical Reports—Other


Access to Information
The Inspector General Act of 1978 requires Inspectors General to report on unreasonable refusals
of information available to the agency which relate to programs and operations for which the
Inspector General has responsibilities. There were no instances where information or assistance
requested by TIGTA was refused.

Audit Reports Issued in Prior Reporting Period With No Management
Response
The Inspector General Act of 1978 requires a summary of each audit report issued before the
beginning of the current reporting period for which no management response has been received
by the end of the current reporting period. There was one report issued during the prior reporting
period where management's response has not been received.

        The IRS Needs to Strengthen the Controls Over the Y2K Conversion of Its Telecom
        Equipment, Reference No. 2000-20-030
        IRS management did not respond to the formal draft report issued on
        December 17, 1999, because corrective actions were taken during the on-line review and
        the criticality of the Y2K issues had passed.

Revised Management Decisions
The Inspector General Act of 1978 requires Inspectors General to provide a description and
explanation of the reasons for any significant revised management decisions made during the
reporting period. As of September 30, 2000, no significant management decisions were revised.

Disputed Audit Recommendations
The Inspector General Act of 1978 requires Inspectors General to provide information on
significant management decisions in response to audit recommendations, with which the
Inspectors General disagree. As of September 30, 2000, there was one report where a significant
recommendation is disputed.
        Math Error Processing for Revenue Protection Issues, Reference No. 083322

Review of Legislation and Regulations
The Inspector General Act of 1978 requires Inspectors General to review existing and proposed
legislation and regulations and to make recommendations concerning the impact of such
legislation or regulations. TIGTA’s Office of Chief Counsel reviewed 238 proposed legislation
and regulations during the six-month reporting period.




                   Treasury Inspector General for Tax Administration
                                 September 30, 2000
                                                62
                         Semiannual Report to the Congress


                                                                                       Appendix IV

                           TIGTA Audit Report Listing

                          April 1, 2000 – September 30, 2000

Reference
                Issued        Report Title
 Number
2000-10-051   April 2000      Former Employees Had Access to Internal Revenue Service Credit Cards
                              and Computers
2000-10-066   April 2000      The Internal Revenue Service Can Improve the Treatment of Taxpayers
                              During Service Center Audits
                              Taxpayer Rights and Entitlements:   77,000 individual taxpayer accounts
                                                                  at risk
                              Taxpayer Privacy and Security:      123 million individual and corporate
                                                                  accounts at risk
2000-20-073   April 2000      The Internal Revenue Service Can Improve Software Based Access
                              Controls to Enhance Security for Local Area Networks
2000-40-064   April 2000      The Internal Revenue Service Should Enhance Processes and Controls To
                              Protect Taxpayers’ Rights When Issuing Third Party Summonses and
                              Making Third Party Contacts
2000-40-065   April 2000      The Internal Revenue Service Needs to Strengthen Guidelines for
                              Measuring the Quality and Timeliness of the Walk-In Assistance Program
2000-1C-083    May 2000       Incurred Cost Audit Fiscal Year 1998 TIRNO-95-D-00068

2000-1C-084    May 2000       Incurred Cost Audit Fiscal Year 1999 TIRNO-95-D-00068

2000-10-078    May 2000       Automated Collection System Customer Satisfaction Survey Results
                              Should Be Qualified if Used for the GPRA
2000-10-079    May 2000       Walk-In Customer Satisfaction Survey Results Should Be Qualified if
                              Used for the GPRA
2000-10-082    May 2000       GPRA: The Examination Division Should Ensure Proper Disclosure of
                              the Sample Limitations Relating to Its Customer Satisfaction Measure
2000-20-072    May 2000       The General Controls Over a Critical Internal Revenue Service Tax
                              Processing Computer System Can Be Strengthened
                              Taxpayer Privacy and Security:        7.7 million taxpayer accounts at risk
2000-20-074    May 2000       The Internal Revenue Service Needs to Develop Security Policies for Local
                              Area Networks
2000-30-075    May 2000       Management Advisory Report: Evaluation of Reduction in the Internal
                              Revenue Service’s Compliance Activities
2000-30-076    May 2000       Letter Report: The Internal Revenue Service Effectively Implemented a
                              Tax Law That Disqualified Certain Taxpayers from the Earned Income
                              Tax Credit
                              Revenue Protection:                  $20.1 million from 21,471 taxpayer
                                                                   accounts




              Treasury Inspector General for Tax Administration
                            September 30, 2000
                                              63
                         Semiannual Report to the Congress


                                                                                     Appendix IV

                           TIGTA Audit Report Listing

Reference
                Issued       Report Title
 Number
2000-30-077    May 2000      The Internal Revenue Service Can Improve Treatment of Taxpayers
                             During Examinations
                             Taxpayer Rights and Entitlements:    75 taxpayer accounts without
                                                                  support for assertion of penalties
                             Taxpayer Burden:                     5,600 taxpayers assessed without
                                                                  examiners taking sufficient steps to
                                                                  locate
                             Reliability of Information:         Risk of receiving unreliable data on
                                                                 the quality of 550,000 return
                                                                 examinations
2000-40-063    May 2000      Increased Attention Is Needed to Ensure Timely, Accurate
                             Determinations on Innocent Spouse Claims for Relief
2000-40-067    May 2000      Management Advisory Report: Improved Project Management is Needed
                             in Modernizing the Internal Revenue Service’s Walk-In Program
                             Management Information System
2000-40-068    May 2000      The Internal Revenue Service Needs to Improve Control of Its
                             Compliance Research Program
2000-40-069    May 2000      The Internal Revenue Service’s Process for Controlling Filing Season
                             Computer Programming Changes Does Not Ensure Critical Changes Are
                             Effectively Implemented
                             Reliability of Information:          Up to 128 million taxpayers at risk
2000-40-070    May 2000      Additional Validation and Increased Oversight Are Needed to Effectively
                             Implement the Internal Revenue Service Restructuring and Reform Act of
                             1998
                             Taxpayer Rights and Entitlements:     Approximately 540,000 taxpayers
                                                                   received letters concerning potential
                                                                   penalty abatement rights
2000-40-071    May 2000      Improvements Are Needed in the Chief Counsel’s Management
                             Information System to Better Protect Taxpayer Privacy and Rights
2000-40-080    May 2000      The Toll-Free Telephone Filing Season Planning Process Is Adequate

2000-1C-098    June 2000     Pre-Award Accounting System Review TIRNO-99-R-00009

2000-10-086    June 2000     Incurred Cost Audit Reports Are Not Effectively Used to Settle Indirect
                             Rates
                             Funds Put to Better Use:             $70,000
2000-10-090    June 2000     Letter Report: Privacy Rights Should Be Given Greater Consideration
                             During Background Investigation Personal Subject Interviews
2000-10-091    June 2000     Improvements to the Tax Exempt and Government Entities Division’s
                             Telephone Operation Would Enhance Customer Service
                             Taxpayer Burden:                   281,952 callers would benefit from
                                                                improvements
2000-10-100    June 2000     GPRA: The Collection Division Should Ensure Proper Disclosure of the
                             Sample Limitations Relating to Its Customer Satisfaction Measures



              Treasury Inspector General for Tax Administration
                            September 30, 2000
                                             64
                                     Semiannual Report to the Congress


                                                                                                    Appendix IV

                                        TIGTA Audit Report Listing

    Reference
                            Issued         Report Title
     Number
    2000-20-085            June 2000       Significant Progress Has Been Made in Consolidating Mainframe
                                           Computer Operations, But Risks Remain
                                           Taxpayer Burden:                     Over 200 million returns would
                                                                                benefit from an improved processing
                                                                                system
    2000-20-089            June 2000       Assessment of the Internal Revenue Service’s Plans to Transition
                                           Software Development Centers to a Shared Services Model
    2000-20-092            June 2000       Certifying the Security of Internal Revenue Service Computer Systems Is
                                           Still a Material Weakness
                                           Taxpayer Privacy and Security:          Over 123 million taxpayers at risk
    2000-20-094            June 2000       A Comprehensive Program for Preventing and Detecting Computer
                                           Viruses Is Needed
    2000-20-095            June 2000       The Security and Performance of Electronic Tax Return Processing
                                           Should Be Improved to Meet Future Goals
    2000-20-097            June 2000       The Internal Revenue Service Should Improve Actions to Protect Its
                                           Critical Infrastructure
    2000-20-099            June 2000       Significant Risks Need to Be Addressed to Ensure Adequate Oversight of
                                           the Systems Modernization Effort
    2000-30-088            June 2000       Millions of Dollars in Internal Revenue Service Excess Collections
                                           Accounts Could Be Credited to Taxpayers
                                           Funds Put to Better Use:                $1.5 million1
                                           Taxpayer Rights and Entitlements:       $360 million not credited to
                                                                                   taxpayer accounts
    2000-30-096            June 2000       Letter Report: Internal Revenue Service Efforts to Deal With Executor
                                           Commissions Show Promise
                                           Increased Revenue:                   $2.6 million from 161 taxpayer
                                                                                accounts2
    2000-40-081            June 2000       Oversight of Private Vendors for the Credit Card Programs Should Be
                                           Strengthened
                                           Taxpayer Burden:                      1.6 million taxpayer transactions at
                                                                                 risk if contractor performance is not
                                                                                 verified
    2000-40-087            June 2000       Improvements Are Needed to Promptly Resolve Missing Refund Checks
                                           Taxpayer Rights and Entitlements:  497 taxpayers with $1.3 million in
                                                                              suspended replacement refunds
                                           Taxpayer Burden:                   12,224 taxpayers with untimely
                                                                              response to refund inquiries
    2000-40-093            June 2000       More Taxpayers Can Benefit From the New Offer in Compromise
                                           Provisions




1
    Monetary benefits projected over a three-year period.
2
    Monetary benefits projected over a five-year period.


                         Treasury Inspector General for Tax Administration
                                       September 30, 2000
                                                            65
                         Semiannual Report to the Congress


                                                                                      Appendix IV

                            TIGTA Audit Report Listing

Reference
                Issued        Report Title
 Number
2000-1C-102    July 2000      Incurred Cost Audit Fiscal Year 1998 TIR-94-0090

2000-1C-103    July 2000      Incurred Cost Audit Fiscal Year 1999 TIRNO-99-D-00005
                              Questioned Costs:                     $204
2000-1C-108    July 2000      Agreed Upon Procedures for TIRNO-96-D-00022

2000-20-106    July 2000      Computer Security Controls Should Be Strengthened in the Houston
                              District
2000-30-101    July 2000      Management Advisory Report: Duplicate Income Tax Refund Checks
                              Erroneously Mailed to Taxpayers by the Financial Management Service
2000-30-107    July 2000      Letter Report: The Internal Revenue Service Processed Corporation
                              Income Tax Returns Accurately After Year 2000 Changes Were Made
2000-1C-113   August 2000     Agreed Upon Procedures for TIRNO-98-C-00041
                              Questioned Costs:                  $115,593
2000-1C-133   August 2000     Audit of Final Voucher TIR-94-0042

2000-1C-134   August 2000     Incurred Cost Audit TIRNO-95-C-00099

2000-10-104   August 2000     Management Advisory Report: Violations of the Fair Debt Collection
                              Practices Act Resulting in Administrative or Civil Actions
                              (Fiscal Year 2000)
2000-10-105   August 2000     Letter Report: Improvements Are Needed in the Internal Revenue
                              Service’s Federal Financial Management Improvement Act Remediation
                              Plan
2000-10-109   August 2000     The Identification and Reporting of Potential Fair Debt Collection
                              Practices Act Violations Can Be Improved
2000-10-110   August 2000     Letter Report: Documents Containing Official Use Only Material Were
                              Available for Public Use Without Redaction
2000-10-114   August 2000     The Internal Revenue Service Has Significantly Improved Compliance
                              With Legal and Internal Guidelines When Seizing Taxpayers’ Property
2000-10-116   August 2000     Taxpayers Should Be Provided Timely Service When Appealing Denied
                              Requests Under the Freedom of Information Act
2000-10-125   August 2000     Appeals Customer Satisfaction Survey Results Should Be Qualified if
                              Used for the Government Performance and Results Act Requirements
2000-10-129   August 2000     Additional Management Actions Are Needed to Ensure the Timely
                              Processing of Customer Applications for Employee Plans and Exempt
                              Organizations Technical Determinations
2000-20-117   August 2000     Management Advisory Report: Lessons the Internal Revenue Service
                              Can Apply From Its Year 2000 Efforts to Improve the Management of Its
                              Systems
2000-30-111   August 2000     Improvements Are Needed in Resolving In-Business Trust Fund
                              Delinquencies to Prevent Tax Liabilities From Pyramiding




              Treasury Inspector General for Tax Administration
                            September 30, 2000
                                             66
                          Semiannual Report to the Congress


                                                                                      Appendix IV

                             TIGTA Audit Report Listing

Reference
                 Issued        Report Title
 Number
2000-30-112    August 2000     Estimated Tax Penalty Assessment Processes Create Significant Taxpayer
                               Inequity
                               Taxpayer Rights and Entitlements:    $116 million in penalties that 2.9
                                                                    million taxpayers would not have
                                                                    paid if the IRS computed the tax
2000-30-115    August 2000     The Internal Revenue Service Processed Most Estate and Gift Tax
                               Returns Accurately, but Some Estates Did Not Receive the Maximum Tax
                               Credit
                               Taxpayer Rights and Entitlements:     $11.6 million in allowable tax
                                                                     credits for 1,250 returns
2000-30-120    August 2000     Expanding the Electronic Tax Law Assistance Program

2000-30-121    August 2000     Further Testing and Refinement Are Needed Before Expanding Case
                               Resolution Authorities for Currently Not Collectible Accounts
                               Increased Revenue:                    $12.739 million from 2,006
                                                                     taxpayers
2000-30-122    August 2000     Management Advisory Report: Actions to Improve the Automated
                               Collection System Should Be Taken Within a Sound Strategic Framework
2000-30-123    August 2000     Procedures for Installment Agreements With In-Business Taxpayers Need
                               to Be Strengthened
2000-30-127    August 2000     Letter Report: Collection Was Suspended Indefinitely for Some Accounts
                               Because of Control Weaknesses in Processing Taxpayer Claims
                               Increased Revenue:                    $6.5 million from 1,172 taxpayers
2000-30-128    August 2000     The Internal Revenue Service Needs to Improve the Development and
                               Management Oversight of the Collection Field Function Inventory
                               Priorities
2000-10-118   September 2000   Further Improvements Are Needed in Processes That Control and Report
                               Misuse of Enforcement Statistics
2000-10-119   September 2000   Additional Action Is Needed to Eliminate Illegal Tax Protester
                               Designations
                               Taxpayer Rights and Entitlements:     546 cases and 259 accounts with
                                                                     prohibited references
                               Reliability of Information:           134 Internal Revenue Manual
                                                                     sections and 15 IRS publications
                                                                     with prohibited references
2000-10-132   September 2000   Letter Report: Improvements Have Been Implemented for Directly
                               Contacting Taxpayers and Their Representatives
2000-10-136   September 2000   Management Advisory Report: Reporting Taxpayer Complaints and
                               Allegations of Employee Misconduct
2000-10-137   September 2000   Toll-Free Customer Satisfaction Survey Results Should Be Qualified if
                               Used for the Government Performance and Results Act
2000-10-138   September 2000   Administration of the PRIME Contract Can Be Improved




               Treasury Inspector General for Tax Administration
                             September 30, 2000
                                              67
                          Semiannual Report to the Congress


                                                                                       Appendix IV

                            TIGTA Audit Report Listing

Reference
                 Issued        Report Title
 Number
2000-10-142   September 2000   Information Provided to Taxpayers When Requesting Extensions of the
                               Assessment Statute of Limitations Can Be Improved
                               Taxpayer Rights and Entitlements:     43 taxpayer accounts at risk
2000-10-145   September 2000   Improvements Are Needed to Ensure Control and Accountability Over
                               Automated Data Processing Assets
2000-10-147   September 2000   Responses to Taxpayers’ Requests for Information Did Not Always
                               Comply With the Freedom of Information Act or Internal Revenue
                               Service Procedures
                               Taxpayer Rights and Entitlements:     3,251 FOIA, PA, and I.R.C. § 6103
                                                                     requests were improperly withheld
                                                                     or not timely provided
2000-10-148   September 2000   Letter Report: Compliance With Statutory Requirements for the
                               Disclosure of Collection Information to Joint Filers Cannot Be
                               Determined
2000-10-150   September 2000   The Internal Revenue Service Has Significantly Improved Its Compliance
                               With Levy Requirements
                               Taxpayer Rights and Entitlements:     6 taxpayers at risk
                                                                     124 notices not properly controlled
                               Taxpayer Burden:                      32 taxpayers at risk
                               Reliability of Information:           1,208 unmailed levies for which
                                                                     computer information not updated to
                                                                     show the levies were cancelled
2000-10-152   September 2000   Compliance With Requirements for Notifying Taxpayers of Federal Tax
                               Lien Filings Has Not Yet Been Achieved
                               Taxpayer Rights and Entitlements:     14,391 potential violations of
                                                                     taxpayers’ rights and IRS guidelines
2000-20-140   September 2000   Actions to Correct Service Center Mainframe Consolidation Contract
                               Administration Issues Have Not Been Completed, But Progress Is Being
                               Made
                               Funds Put to Better Use:              $28,800,000
2000-20-156   September 2000   The Information Systems Organization Needs to Incorporate Transition
                               Funding in Its Financial Plan
                               Reliability of Information:          $12,425,913 in transition-related
                                                                    initiatives and changes were not
                                                                    included in the FY 2000 and 2001
                                                                    budgets
2000-20-158   September 2000   Additional Actions Are Needed to Strengthen the Development and
                               Enforcement of the Enterprise Architecture
2000-20-159   September 2000   Security Over Taxpayer Data Used in Conducting Compliance Research
                               Should Be Improved
                               Taxpayer Privacy and Security:       14,800,000 taxpayer records at risk
                                                                    of improper access
2000-30-124   September 2000   The Internal Revenue Service Should Strengthen System Controls and
                               Reevaluate the Purpose of the Enforcement Revenue Information System



               Treasury Inspector General for Tax Administration
                             September 30, 2000
                                              68
                                     Semiannual Report to the Congress


                                                                                                     Appendix IV

                                        TIGTA Audit Report Listing

    Reference
                            Issued          Report Title
     Number
    2000-30-126         September 2000      Management Advisory Report: Comparison of Responses to Small
                                            Business/Self-Employed Taxpayer Questions From the Electronic Tax
                                            Law Assistance Program and Other Internet Tax Law Services
    2000-30-130         September 2000      Opportunities Exist to Enhance the International Field Assistance
                                            Specialization Program
    2000-30-131         September 2000      Opportunities Exist to Improve Large Corporate Examination Results

    2000-30-135         September 2000      Letter Report: Reliability Issues with the Coordinated Examination
                                            Management Information System
                                            Reliability of Information:             Inaccurate information could
                                                                                    hamper the IRS’ ability to manage
                                                                                    the program that costs $355 million
                                                                                    and recommends $11.1 billion in
                                                                                    additional taxes each year
    2000-30-143         September 2000      Improvements in the Quality Review Program of Large Corporate
                                            Examinations Are Needed to Demonstrate Its Effectiveness
    2000-30-144         September 2000      Management Advisory Report: The Large and Mid-Size Business
                                            Division Substantially Accomplished Organizational Stand-Up
    2000-30-146         September 2000      Opportunities Exist to Identify Unreported Taxes from Employer’s
                                            Quarterly Federal Tax Returns
    2000-30-149         September 2000      Management Advisory Report: The Small Business/Self-Employed
                                            Division Will Substantially Stand-Up on October 1, 2000
    2000-30-151         September 2000      The Internal Revenue Service Needs to Improve the Identification and
                                            Collection of Unreported Self-Employment Taxes
                                            Funds Put to Better Use:              $300,0001
                                            Increased Revenue:                    $112,000,000 from 91,500
                                                                                  taxpayers1
                                            Taxpayer Burden:                      15,000 taxpayer accounts per year
    2000-30-153         September 2000      The Internal Revenue Service Should Take Additional Actions to Protect
                                            Taxpayer Remittances
                                            Protection of Resources:             Over $100 billion in remittances
                                                                                 processed yearly remain at risk if
                                                                                 controls are not further improved
    2000-30-154         September 2000      Significant Improvements Are Needed in Processing Gift Tax Payments
                                            and Associated Extensions to File
                                            Funds Put to Better Use:             $8,327,162
                                            Revenue Protection:                  $237,489,033
                                            Taxpayer Burden:                     18,357 incorrect notices sent to
                                                                                 taxpayers
                                                                                 $3,192,251 in penalties incorrectly
                                                                                 charged to taxpayers


1
    Monetary benefits projected over a five-year period.



                         Treasury Inspector General for Tax Administration
                                       September 30, 2000
                                                            69
                                   Semiannual Report to the Congress


                                                                                                   Appendix IV

                                     TIGTA Audit Report Listing

   Reference
                          Issued         Report Title
    Number
   2000-30-161        September 2000     The Collection Quality Measurement System’s Process Can Be Enhanced

   2000-30-162        September 2000     The Internal Revenue Service Needs to Better Address Bankruptcy
                                         Automatic Stay Violations
                                         Taxpayer Rights and Entitlements:     143 taxpayer accounts
   2000-30-163        September 2000     The Internal Revenue Service Can Help Small Businesses Save Millions of
                                         Dollars in Failure to Deposit Penalties
                                         Funds Put to Better Use:                $859,000
                                         Taxpayer Burden:                        818,000 contacts for small dollar
                                                                                 penalties
   2000-30-164        September 2000     Management Advisory Report: Enhancing the Electronic Tax Law
                                         Assistance Program
   2000-30-165        September 2000     The Internal Revenue Service Can Better Use Collectibility Information
                                         During the Examination Process
                                         Increased Revenue:                   $8,100,000
   2000-40-141        September 2000     Additional Emphasis Is Needed to Identify and Resolve Thefts of
                                         Taxpayer Payments
                                         Taxpayer Burden:                      2 taxpayer cases with unwarranted
                                                                               actions
                                         Reliability of Information:           5 taxpayer cases not properly
                                                                               controlled
   2000-40-160        September 2000     Management Advisory Report: Administration of the Earned Income
                                         Credit

Note: Outcome measures are shown in italicized type. A taxpayer’s account may be impacted by multiple
recommendations.

TIGTA audit reports are available on-line at http://www.treas.gov/tigta/audit_reports.htm




                       Treasury Inspector General for Tax Administration
                                     September 30, 2000
                                                         70
                                  Semiannual Report to the Congress


                                                                                           Appendix V

                                        Section 1203 Standards

In general, the Commissioner of Internal Revenue shall terminate the employment of any
employee of the IRS if there is a final administrative or judicial determination that in the
performance of official duties such employee committed the misconduct violations outlined
below. Such termination shall be removal for cause on charges of misconduct.
Misconduct violations include:
(1) willful failure to obtain the required approval signatures on documents authorizing the seizure
    of a taxpayer’s home, personal belongings, or business assets;
(2) providing a false statement under oath with respect to a material matter involving a taxpayer
    or taxpayer representative;
(3) with respect to a taxpayer, taxpayer representative, or other employee of the IRS, the violation
    of –
         •    any right under the Constitution of the United States, or
         •    any civil right established under –
                   (i)         Title VI or VII of the Civil Rights Act of 19641,
                   (ii)        Title IX of the Education Amendments of 19722,
                   (iii)       The Age Discrimination in Employment Act of 19673,
                   (iv)        The Age Discrimination Act of 19754,
                   (v)         Section 501 or 504 of the Rehabilitation Act of 19735, or
                   (vi)        Title I of the Americans with Disabilities Act of 19906;
(4) falsifying or destroying documents to conceal mistakes made by any employee with respect to
     a matter involving a taxpayer or taxpayer representative;
(5) assault or battery on a taxpayer, taxpayer representative, or other employee of the IRS, but
    only if there is a criminal conviction, or a final judgment by a court in a civil case, with
    respect to the assault or battery;
(6) violations of the Internal Revenue Code, Department of Treasury regulation, or policies of the
    IRS (including the Internal Revenue Manual) for the purpose of retaliating against, or
    harassing a taxpayer, taxpayer representative, or other employee of the IRS;
(7) willful misuse of the provisions of Section 6103 of the Internal Revenue Code for the purpose
    of concealing information from a Congressional inquiry;


1
  42 U.S.C. § 2000e
2
  20 U.S.C. §§ 1681-1688
3
  29 U.S.C. §§ 621-634
4
  42 U.S.C. §§ 6101-6107
5
  29 U.S.C. §§ 701 & 794
6
  42 U.S.C. §§ 12111 et seq.


                         Treasury Inspector General for Tax Administration
                                       September 30, 2000
                                                      71
                            Semiannual Report to the Congress


                                                                                      Appendix V

                                  Section 1203 Standards

(8) willful failure to file any return of tax required under the Internal Revenue Code of 1986 on or
    before the date prescribed therefor (including any extensions), unless such failure is due to
    reasonable cause and not to willful neglect;
(9) willful understatement of federal tax liability, unless such understatement is due to reasonable
    cause and not to willful neglect; and,
(10) threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

In general, the Commissioner of Internal Revenue may take a personnel action other than
employment termination for the misconduct violations outlined above. The exercise of this
authority shall be at the sole discretion of the Commissioner and may not be delegated to any
other officer. The Commissioner in his sole discretion may establish a procedure which will be
used to determine whether an individual should be referred to the Commissioner for a
determination by the Commissioner. Any determination of the Commissioner in these matters
may not be appealed in any administrative or judicial proceeding.




                   Treasury Inspector General for Tax Administration
                                 September 30, 2000
                                                 72
                                      Semiannual Report to the Congress


                                                                                                            Appendix VI

                               Statutory TIGTA Reporting Requirements

In FY 2000, TIGTA completed its second round of statutory reviews required annually by the
RRA 98, including one new audit for a provision that became effective on
January 1, 2000. The table below reflects the status of the FY 2000 RRA 98 statutory reviews.
Eleven statutory audit reports were issued in this reporting period that dealt with taxpayer
protection and rights, and 16 reports that dealt with the adequacy and security of IRS technology.1



       Reference to                   Explanation of the
                                                                             Comments/TIGTA Audit Status
    Statutory Coverage                    Provision
Restrictions on the Use           An evaluation of the                Reference No. 2000-10-118, September 2000
of Enforcement Statistics         compliance of the IRS with          Most employee evaluations and management
                                  restrictions under § 1204 of        documents reviewed did not contain tax enforcement
I.R.C. § 7803(d)(1)(A)(i)         RRA 98 on the use of                results and did not impose production quotas or goals.
                                  enforcement statistics to           However, there were some instances when records of
                                  evaluate IRS employees.             tax enforcement results were used to evaluate
                                                                      employees or to impose or suggest production quotas
                                                                      or goals. Neither the IRS managers’ self-certification
                                                                      process nor the IRS internal review process identified
                                                                      all the violations. In addition, employees were not
                                                                      always evaluated on the performance standard
                                                                      requiring the fair and equitable treatment of
                                                                      taxpayers.
Restrictions on Directly          An evaluation of the                Reference No. 2000-10-132, September 2000
Contacting Taxpayers              compliance of the IRS with          The Office of Audit could not determine whether the
                                  restrictions under I.R.C. § 7521    IRS is in compliance with 26 U.S.C. § 7521(b)(2) and
I.R.C. § 7803(d)(1)(A)(ii)        on directly contacting              (c) (1986), which require employees to stop an
                                  taxpayers who have indicated        interview for taxpayers to consult with a
                                  that they prefer their              representative or to obtain IRS management approval
                                  representatives be contacted.       to contact the taxpayer instead of the representative.
                                                                      The IRS has not changed its process for handling
                                                                      these types of requests since the FY 1999 audit, and
                                                                      both the IRS and the Office of Audit were unable to
                                                                      readily identify cases for review. However, IRS
                                                                      management will work with a vendor to design a
                                                                      survey to determine the level of compliance by
                                                                      Examination and Collection Division employees with
                                                                      the legal requirements. This information will help
                                                                      IRS management ensure that employees are
                                                                      protecting the rights of taxpayers.




1
    This includes: 11 taxpayer protection and rights audit reports; 8 audit reports on the security of IRS technology; and,
    8 audit reports on IRS information technology. All information technology program reviews are considered statutory
    because of the RRA 98 requirement to report annually on the adequacy and security of IRS technology.


                          Treasury Inspector General for Tax Administration
                                        September 30, 2000
                                                                 73
                                  Semiannual Report to the Congress


                                                                                                     Appendix VI

                              Statutory TIGTA Reporting Requirements

   Reference to                   Explanation of the
                                                                       Comments/TIGTA Audit Status
Statutory Coverage                    Provision
Filing of a Notice of Lien     An evaluation of the             Reference No. 2000-10-152, September 2000
                               compliance of the IRS with       The IRS has not achieved full compliance with the
I.R.C. § 7803(d)(1)(A)(iii)    required procedures under        legal requirements set forth in 26 U.S.C. § 6320
                               I.R.C. § 6320 (Supp. IV 1998)    (Supp. IV 1998) and its own internal guidelines for
                               upon the filing of a notice of   the filing of federal tax liens. The Office of Audit’s
                               lien.                            review of 473 manually and systemically filed liens
                                                                identified 21 (4 percent) potential violations of
                                                                taxpayers’ rights and 66 (14 percent) violations of
                                                                IRS guidelines. The Office of Audit projected that
                                                                14,391 of the taxpayers with liens filed by the IRS
                                                                between April 1 and December 31, 1999, may have
                                                                encountered similar potential legal violations and/or
                                                                procedural violations. The mailing of due process
                                                                notices is a manual process, and employee error
                                                                allowed the potential legal violations of taxpayer
                                                                rights to occur. At the time of this audit, the IRS’
                                                                controls did not ensure notices were timely mailed,
                                                                nor identify and prevent instances of non-compliance.
Levies                         An evaluation of the             Reference No. 2000-10-150, September 2000
                               compliance of the IRS with       The IRS’ compliance with legal and internal
I.R.C.                         required procedures under        guidelines for notifying taxpayers of their appeal
§ 7803 (d)(1)(A)(iv)           I.R.C § 6330 (Supp. IV 1998)     rights before issuing levies has significantly
                               regarding levies.                improved. The Office of Audit reviewed statistically
                                                                valid samples of 451 district office and ACS call site
                                                                levies cases issued between May 1 and August 31,
                                                                1999, in two district offices and four ACS call sites.
                                                                Only six cases (1 percent), in two call sites, were
                                                                identified where the taxpayer was not notified 30 days
                                                                prior to the levy being issued. Also, the Office of
                                                                Audit identified three areas where internal records did
                                                                not always accurately reflect levy activity for 1,364
                                                                taxpayer accounts.

                                                                IRS computer records in a fifth ACS call site showed
                                                                1,208 systemically generated levies were issued,
                                                                although manual records showed these levies were
                                                                cancelled prior to issuance. In addition, the IRS could
                                                                have violated the rights of 124 taxpayers if it denied
                                                                requests for an Appeals hearing based on the notice
                                                                date, and the certified mail listing showed a later date
                                                                or the certified mail listing was not retained as proof
                                                                that the notice was timely mailed. Also, 32 taxpayer
                                                                accounts were not updated to show that taxpayers
                                                                were notified of the IRS’ intent to levy and of the
                                                                taxpayers’ right to an Appeals hearing.




                       Treasury Inspector General for Tax Administration
                                     September 30, 2000
                                                          74
                                 Semiannual Report to the Congress


                                                                                                     Appendix VI

                             Statutory TIGTA Reporting Requirements

   Reference to                   Explanation of the
                                                                        Comments/TIGTA Audit Status
Statutory Coverage                    Provision
Seizures                      An evaluation of the                Reference No. 2000-10-114, August, 2000
                              compliance of the IRS with          The IRS is in compliance with 26 U.S.C. §§ 6330
I.R.C. § 7803(d)(1)(A)(iv)    required procedures under           through 6344 (Supp. IV 1998) and its own guidelines
                              Subchapter D of Chapter 64 for      for all seizure cases reviewed. The Office of Audit
                              seizure of property for             attributes these improvements to increased managerial
                              collection of taxes.                involvement in the seizure approval process, the
                                                                  issuance of an updated seizure handbook, and
                                                                  additional mandatory RRA 98 training provided to
                                                                  revenue officers during FY 1999. Additionally, to
                                                                  comply with RRA 98 § 3443, the IRS implemented a
                                                                  new specialist position on July 22, 2000, which
                                                                  removes revenue officers from participating in the
                                                                  disposal of seized property. One weakness was
                                                                  identified in the IRS’ procedures that could allow
                                                                  wrongful seizures to occur.
Taxpayer Designations –       An evaluation of the                Reference No. 2000-10-119, September 2000
Illegal Tax Protester         compliance of the IRS with          RRA 98 § 3707 prohibits the IRS from designating
Designation and Nonfiler      restrictions under § 3707 of        taxpayers as ITP or any similar designation and
Designation                   RRA 98 on designation of            required the removal of any such designation from the
                              taxpayers.                          IRS’ main computer file. IRS management removed
I.R.C. § 7803(d)(1)(A)(v)                                         and prevented the use of the ITP designation on the
                                                                  IRS’ main computer file and issued directives to
                                                                  employees to discontinue, remove, and disregard ITP
                                                                  references within computer systems, case files,
                                                                  manuals, training materials, and other publications.
                                                                  However, some of the actions required by these
                                                                  directives were not properly performed. There were
                                                                  96 case files in various IRS functions with ITP
                                                                  references, and an estimated 450 computerized case
                                                                  histories used by ACS employees with ITP
                                                                  references, made after the effective date of the
                                                                  prohibition. Further, 176 records on the Taxpayer
                                                                  Advocate Management Information System and 83
                                                                  records on the Audit Information Management
                                                                  System contained ITP codes input after the effective
                                                                  date of the prohibition. There were also
                                                                  approximately 134 references to ITPs in the Internal
                                                                  Revenue Manual and 15 publications with an ITP
                                                                  reference in the titles.




                      Treasury Inspector General for Tax Administration
                                    September 30, 2000
                                                             75
                                Semiannual Report to the Congress


                                                                                                      Appendix VI

                           Statutory TIGTA Reporting Requirements

   Reference to                  Explanation of the
                                                                        Comments/TIGTA Audit Status
Statutory Coverage                   Provision
Disclosure of Collection     Review and certify whether or       Reference No. 2000-10-148, September 2000
Activities With Respect      not the IRS is complying with       The Office of Audit could not determine whether the
to Joint Returns             I.R.C. § 6103(e)(8) to disclose     IRS is complying with the statutory requirements for
                             information to an individual        responding to written requests from joint filers
I.R.C. § 7803(d)(1)(B)       filing a joint return on            because both the Office of Audit and the IRS are still
I.R.C. § 6103(e)(8)          collection activity involving the   unable to readily identify joint filer requests received
                             other individual filing the         nationwide. There is no requirement for, and the IRS
                             return.                             does not maintain, separate records of joint filer
                                                                 requests and responses nationwide. The IRS has not
                                                                 changed its process for handling these types of
                                                                 requests since our FY 1999 audit. Until IRS
                                                                 management conducts a complete analysis of the
                                                                 volume of written joint filer requests received, it will
                                                                 not be able to determine whether a centralized
                                                                 management control process is warranted.
Complaints and               List any terminations or            Reference No. 2000-10-136, September 2000
Allegations of Employee      mitigation under § 1203 of          The three prior TIGTA Semiannual Reports included
Misconduct and               RRA 98, § 1102(a).                  a footnote that the number of complaints reported by
Terminations and                                                 the IRS may contain duplicate information. Although
Mitigation for Certain                                           the IRS has no manual or systemic process to identify
Proven Violations                                                duplicate complaint information, the IRS has initiated
Committed by IRS                                                 planning to reduce the potential for reporting
Employees                                                        duplicate complaint information from its systems.
                                                                 There are currently no plans to identify potential
I.R.C. § 7803(d)(1)(E)                                           duplicate information between the IRS and the
I.R.C. § 7803(d)(2)(A)                                           TIGTA systems.
Administrative or Civil      Include information regarding       Reference No. 2000-10-104, August 2000
Actions With Respect to      any administrative or civil         Based upon a review of the IRS’ computer systems,
the Fair Debt Collection     actions with respect to             the Office of Audit identified one violation of the Fair
Practices Act of 1996        violations of the fair debt         Debt Collection Practices Act (FDCPA) that resulted
                             collection provision of I.R.C.      in the IRS taking an administrative action against an
I.R.C. § 7803(d)(1)(G)       § 6304, including a summary of      employee for the period March 19, 1999, through
I.R.C. § 6304                such actions, and any resulting     March 31, 2000. In addition, there were no civil
§ 3466 of RRA 98             judgments or awards granted.        actions that resulted in the IRS paying monetary
                                                                 settlements to taxpayers because of a FDCPA
                                                                 violation. The IRS did not have any closed civil
                                                                 actions on FDCPA violations for the period
                                                                 June 11, 1999, through March 31, 2000. As a result,
                                                                 the IRS did not pay any money to taxpayers for civil
                                                                 actions resulting from FDCPA violations.




                         Treasury Inspector General for Tax Administration
                                       September 30, 2000
                                                          76
                                Semiannual Report to the Congress


                                                                                                   Appendix VI

                           Statutory TIGTA Reporting Requirements

   Reference to                 Explanation of the
                                                                      Comments/TIGTA Audit Status
Statutory Coverage                  Provision
Denial of Requests for       Include information regarding     Reference No. 2000-10-147, September 2000
Information                  improper denial of requests for   The IRS improperly withheld information from
                             information from the IRS,         requestors in 8.8 percent of the FOIA and PA
I.R.C. § 7803(d)(1)(F)       based on a statistically valid    requests, and 6.3 percent of the I.R.C. § 6103 requests
I.R.C. § 7803(d)(3)(A)       sample of the total number of     reviewed. Additionally, the IRS did not respond
                             determinations made by the        timely to FOIA and PA requestors in 33.8 percent of
                             IRS to deny written requests to   the cases included in Office of Audit’s sample of
                             disclose information to           information that was denied or where the IRS replied
                             taxpayers on the basis of         that responsive records were not available. The
                             I.R.C. § 6103 or                  Office of Audit’s statistical samples were taken from
                             5 U.S.C. § 552(b)(7).             cases closed during the period January 1 through
                                                               September 30, 1999.

                                                               The Office of Audit estimated that information was
                                                               improperly withheld from responses to 557 FOIA and
                                                               PA requests and 556 I.R.C. § 6103 requests during
                                                               our sample period. The Office of Audit also
                                                               estimated that responses to 2,138 FOIA and PA
                                                               requests were not processed timely during the same
                                                               period.
Adequacy and Security        Evaluation of the adequacy and    During this reporting period, the Office of Audit
of the Technology of the     security of the technology of     issued 16 reports in this area:
IRS                          the IRS.
                                                               Security Reviews:
                                                               Reference No. 2000-20-073, April 2000
I.R.C. § 7803(d)(1)(D)
                                                               Reference No. 2000-20-072, May 2000
                                                               Reference No. 2000-20-074, May 2000
                                                               Reference No. 2000-20-092, June 2000
                                                               Reference No. 2000-20-094, June 2000
                                                               Reference No. 2000-20-097, June 2000
                                                               Reference No. 2000-20-106, July 2000
                                                               Reference No. 2000-20-159, September 2000

                                                               Information Technology Reviews:
                                                               Reference No. 2000-20-085, June 2000
                                                               Reference No. 2000-20-089, June 2000
                                                               Reference No. 2000-20-095, June 2000
                                                               Reference No. 2000-20-099, June 2000
                                                               Reference No. 2000-20-117, August 2000
                                                               Reference No. 2000-20-140, September 2000
                                                               Reference No. 2000-20-156, September 2000
                                                               Reference No. 2000-20-158, September 2000




                         Treasury Inspector General for Tax Administration
                                       September 30, 2000
                                                         77
                                Semiannual Report to the Congress


                                                                                                       Appendix VI

                            Statutory TIGTA Reporting Requirements

   Reference to                  Explanation of the
                                                                        Comments/TIGTA Audit Status
Statutory Coverage                   Provision
Extensions of the Statute    Include information regarding       Reference No. 2000-10-142, September 2000
of Limitations for           extensions of the statute of        In most of the cases (193 of 203) reviewed, with
Assessment of Tax            limitations for assessment of       assessment statute extensions, examiners properly
                             tax under I.R.C. § 6501 and the     advised taxpayers of their right to refuse or restrict the
I.R.C. § 7803(d)(1)(C)       provision of notice to taxpayers    scope of the statute extension. However, in 10 cases
I.R.C. § 6501                regarding the right to refuse or    (5 percent of the sample) examiners did not indicate,
                             limit the extension to particular   in case files, whether taxpayers were advised of these
                             issues or a particular period of    rights. During the review, the IRS distributed
                             time.                               guidance to its employees to make them aware of new
                                                                 procedures, which should help to ensure that the IRS
                                                                 complies with the law in the future. However,
                                                                 additional information should be provided to
                                                                 taxpayers to adequately explain the potential for
                                                                 additional issues to be audited and the process to limit
                                                                 extensions to specific issues.




                         Treasury Inspector General for Tax Administration
                                       September 30, 2000
                                                          78
                               Semiannual Report to the Congress


                                                                                                 Appendix VII

                 Government Performance and Results Act Audits

The Government Performance and Results Act of 1993 is intended to increase agency
accountability and improve the quality and delivery of government services. The GPRA holds
federal agencies accountable for program results by emphasizing goal setting, customer
satisfaction, and results measurement. Federal agencies are required to prepare multi-year
strategic plans, annual performance plans, and annual program performance reports (APPR). In
FY 1999, federal agencies were required to submit to the President and the Congress annual
performance plans that set annual goals with measurable target levels of performance. Beginning
with FY 2000, federal agencies were required to report on their successes in achieving the goals
established in the prior year’s performance plan in an annual program performance report.

The following reviews were performed as part of TIGTA’s strategy to assess the IRS’ compliance
with GPRA.

 Reference
  Number           Report Title and Recommendation Summary                           Management Response

2000-10-078   Automated Collection System Customer Satisfaction Survey             IRS management agreed with the
              Results Should Be Qualified if Used for the GPRA                     recommendations and has
                                                                                   initiated corrective action.
              Objective: Evaluate the accuracy, validity, and reliability of the
              information used to measure customer satisfaction with the ACS.

              Recommendations: IRS management should improve the
              process for overseeing the ACS Customer Satisfaction Survey
              to ensure the survey is properly administered and the results
              are accurate, valid, and reliable to ensure the IRS meets the
              GPRA requirements for measuring customer satisfaction with
              ACS program services.
2000-10-079   Walk-In Customer Satisfaction Survey Results Should Be               IRS management agreed with the
              Qualified if Used for the GPRA                                       recommendations and has
                                                                                   initiated corrective action.
              Objective: Evaluate the reliability of the information used to
              measure customer satisfaction at the Walk-In offices.
              Recommendations: IRS management should improve the
              process for overseeing the Walk-In Customer Satisfaction
              Survey to ensure the survey is properly administered and the
              results are accurate, valid, and reliable.




                    Treasury Inspector General for Tax Administration
                                  September 30, 2000
                                                          79
                              Semiannual Report to the Congress


                                                                                                Appendix VII

                 Government Performance and Results Act Audits


Reference
 Number            Report Title and Recommendation Summary                          Management Response

2000-10-082   GPRA: The Examination Division Should Ensure Proper                 IRS management agreed with the
              Disclosure of the Sample Limitations Relating to Its                recommendations and has
              Customer Satisfaction Measure                                       initiated corrective action.

              Objective: Assess the validity of the information used to
              measure customer satisfaction for the Examination Division in
              the IRS.

              Recommendations: IRS management should clearly state the
              limitations of the sampling process and the resultant effect of
              Examination Division’s ability to report customer satisfaction
              in the FY 1999 APPR. In addition, IRS management should
              also consider actions to increase the response rate to the
              surveys in order to decrease the risk associated with projecting
              to those taxpayers that do not respond to the survey.
2000-10-100   GPRA: The Collection Division Should Ensure Proper                  Management’s response has not
              Disclosure of the Sample Limitations Relating to Its                been received.
              Customer Satisfaction Measures
              Objective: Assess the validity of the information used to
              measure customer satisfaction in the IRS Collection Field
              function.
              Recommendations: IRS management should ensure that any
              survey data included in the FY 1999 APPR is adequately
              qualified and inform the Congress about ongoing actions to
              correct these limitations. IRS management also should report
              that additional time is needed to establish a baseline year using
              the Integrated Collection System data. In addition, IRS
              management should ensure that Collection explores ways to
              increase the response rate for the survey and ensure that
              Collection establishes procedures that will allow the
              measurement of customer satisfaction for each business unit.

2000-10-125   Appeals Customer Satisfaction Survey Results Should Be              IRS management agreed with the
              Qualified if Used for the Government Performance and                recommendations and has
              Results Act Requirements                                            initiated corrective action.
              Objective: Evaluate the reliability of the information used to
              measure customer satisfaction with the Appeals process.
              Recommendations: IRS management should improve the
              process to oversee the Appeals Customer Satisfaction Survey
              by ensuring the data transmitted to the vendor is protected
              through encryption. In addition, IRS management should
              clearly disclose the limitations of the survey results until the
              survey response rate reaches a level acceptable for GPRA
              purposes.




                   Treasury Inspector General for Tax Administration
                                 September 30, 2000
                                                        80
                               Semiannual Report to the Congress


                                                                                                  Appendix VII

                 Government Performance and Results Act Audits


Reference
 Number            Report Title and Recommendation Summary                           Management Response

2000-10-137   Toll-Free Customer Satisfaction Survey Results Should Be             IRS management agreed with
              Qualified if Used for the Government Performance and                 some of the recommendations
              Results Act                                                          and has initiated corrective
                                                                                   action. The IRS did not agree
              Objective: Evaluate the accuracy, validity, and reliability of       with our assessment of its
              the information used by the IRS to measure customer                  control process or sample
              satisfaction with the Toll-Free Program.                             selection methodology, but will
              Recommendations: IRS management should consider                      reevaluate these issues when it
              establishing a process to ensure the Toll-Free Customer              hires a new vendor.
              Satisfaction Survey is administered properly and that the data
              used to report survey results are reliable, valid, and verifiable.
              IRS management should revise the survey selection and
              expand surveyors’ work hours to correspond with site
              operation hours to ensure all customers’ interactions have an
              opportunity of being selected. Also, the GPRA reports should
              be appropriately qualified with any limitations of the survey’s
              design and reliability of its data.




                   Treasury Inspector General for Tax Administration
                                 September 30, 2000
                                                         81
                     Semiannual Report to the Congress


                                                                       Appendix VIII

                                       Acronyms

ACS     Automated Collection System               GBI      Georgia Bureau of Investigation
ADP     Automated Data Processing                 GPRA     Government Performance and
AFIS    Automated Fingerprint                              Results Act of 1993
        Identification System                     IFASP    International Field Assistance
ALS     Automated Lien System                              Specialization Program
APPR    Annual Program Performance                IG       Inspector General
        Report                                    I.R.C.   Internal Revenue Code
ATLAS   Audit Trail Lead Analysis System          IRS      Internal Revenue Service
CFf     Collection Field Function                 ITP      Illegal Tax Protester
CFS     Customer Feedback System                  OIG      Office of Inspector General
CI      IRS Criminal Investigation                PA       Privacy Act of 1974
CMD     Complaint Management Division             PDD      Presidential Decision Directive
CSED    Collection Statute Expiration Date        PMO      Program Management Office
CSR     Customer Service Representative           PRP      Problem Resolution Program
EFDS    Electronic Fraud Detection                RIS      Request for Information Services
        System                                    RRA 98   IRS Restructuring and Reform Act
EIC     Earned Income Credit                               of 1998
EIN     Employer Identification Number            SBA      Small Business Administration
ELC     Enterprise Life Cycle                     SED      Strategic Enforcement Division
EMS     Electronic Management System              SFR      Substitute for Return
ETLA    Electronic Tax Law Assistance             SSA      Social Security Administration
        Program                                   TAMIS    Taxpayer Advocate Management
FDCPA   Fair Debt Collection Practices Act                 Information System
        of 1996                                   TIGTA    Treasury Inspector General for
FFMIA   Federal Financial Management                       Tax Administration
        Improvement Act of 1996                   TRMG     Tax Revenue Ministry of Georgia
FMFIA   Federal Managers’ Financial               TY       Tax Year
        Integrity Act of 1982                     UNAX     Unauthorized Access to Taxpayer
FOIA    Freedom of Information Act of                      Accounts
        1988                                      U.S.     United States
FSL     Forensic Science Laboratory               U.S.C.   United States Code
FTD     Federal Tax Deposit                       Y2K      Year 2000
FY      Fiscal Year
GAO     General Accounting Office




           Treasury Inspector General for Tax Administration
                         September 30, 2000
                                             83
                                                       Semiannual Report to the Congress


                                                                                                                                         Appendix IX

                                                                 Organization Chart



                                                                   Inspector General
                                                                        for Tax
                                                                     Administration


                                                     Chief Counsel to the
                                                      Inspector General




                   Deputy Inspector                                           Deputy Inspector             Assistant Inspector     Assistant Inspector
                     General for                                                 General for                   General for            General for
                        Audit                                                  Investigations            Information Technology   Management Services



     Associate IG,                 Associate IG,                Associate IG for             Associate IG for
Headquarters Operations &        Small Business &                Investigations               Investigations
  Exempt Organizations          Corporate Programs          (Investigative Support)          (Field Divisions)
       Programs

      Associate IG,                Associate IG,
  Information Systems            Wage & Investment                                       Deputy Associate IG for
       Programs                  Income Programs                                             Investigations
                                                                                            (Field Divisions)




                                            Treasury Inspector General for Tax Administration
                                                          September 30, 2000
                                                                             85
       To report fraud, waste or abuse
          Call our toll-free hotline
                  1-800-366-4484




                        or write to:
Treasury Inspector General for Tax Administration
                   P.O. Box 589
              Ben Franklin Station
          Washington, D.C. 20044-0589

 Information is confidential and you may remain anonymous



                 For Tax Problem Assistance
              Call the IRS Taxpayer Advocate at:
                        1-877-777-4778
DEPARTMENT OF THE TREASURY
OFFICE OF THE INSPECTOR GENERAL FOR TAX ADMINISTRATION
1111 CONSTITUTION AVENUE, NW, SUITE 3031
WASHINGTON, D.C. 20224




Publication Number 3372 (Rev. 11-2000)
Catalog Number 27393K
